     Federal Deposit Insurance Corporation
Board of Governors of the Federal Reserve System
   and Consumer Financial Protection Bureau
          Department of the Treasury

  Enforcement Actions and
 Professional Liability Claims
 Against Institution-Affiliated
   Parties and Individuals
    Associated with Failed
         Institutions


                  Report Numbers

                    EVAL-14-002
                   2014-SR-B-011
                   OIG-CA-14-012


                     July 2014
         


                           Offices of Inspector General
DATE:                     July 25, 2014

MEMORANDUM TO: Martin J. Gruenberg, Chairman
               Federal Deposit Insurance Corporation

                          Janet L. Yellen, Chair
                          Board of Governors of the Federal Reserve System

                          Thomas J. Curry, Comptroller of the Currency
                          Office of the Comptroller of the Currency



      /s/                                         /s/                              /s/
FROM: Fred W. Gibson, Jr.                         Mark Bialek                      Eric M. Thorson
      Principal Deputy Inspector General          Inspector General                Inspector General
      Federal Deposit Insurance                   Board of Governors of the        Department of
      Corporation                                 Federal Reserve System           the Treasury
                                                  and Consumer Financial
                                                  Protection Bureau


SUBJECT:                  Enforcement Actions and Professional Liability Claims Against Institution-
                          Affiliated Parties and Individuals Associated with Failed Institutions
                          (Report Numbers: EVAL-14-002; 2014-SR-B-011; OIG-CA-14-012)


Attached is a copy of an evaluation report that the Offices of Inspector General (OIG) recently
completed concerning actions that the banking regulators (the Federal Deposit Insurance
Corporation—FDIC; the Board of Governors of the Federal Reserve System—FRB; and the Office of
the Comptroller of the Currency—OCC) took against individuals and entities in response to actions
that harmed financial institutions. The objectives of our evaluation were to:
    1. Describe the Regulators’ processes for investigating and pursuing enforcement actions (EA)
       against institution-affiliated parties (IAP) associated with failed institutions;
    2. Describe the FDIC’s process for investigating and pursuing professional liability claims (PLC)
       against individuals and entities associated with failed institutions and its coordination with the
       FRB and OCC;
    3. Determine the results of the Regulators’ efforts in investigating and pursuing EAs against IAPs
       and the FDIC’s efforts in pursuing PLCs; and
    4. Assess key factors that may impact the pursuit of EAs and PLCs.
As discussed in our report, the Regulators have established formal processes for investigating and
imposing EAs on IAPs whose actions harmed institutions, and the FDIC has done the same for
investigating and pursuing PLCs. During the 5-year period from 2008-2012, 465 institutions
failed. As of September 30, 2013, the Regulators had issued 275 EAs against individuals associated
with 87 of those failed institutions, and the FDIC had completed 430 PLCs and had an additional 305
pending a final result—many pertaining to directors and officers—based on litigation or negotiation.

The report contains seven recommendations intended to strengthen the FDIC, FRB, and OCC’s
programs for pursuing EAs and the FDIC’s program for pursuing PLCs and to address factors that
appeared to impact the Regulators’ ability to pursue such actions. Of the seven recommendations, two
were applicable to all three agencies, one was applicable to the FRB and OCC, and four were
applicable to the FDIC. Regarding EAs, we recommended that the:
       FDIC, FRB, and OCC further examine methodologies to support EAs that permanently ban
        from banking, those individuals whose actions harmed financial institutions based on a willful
        or continuing disregard for the safety or soundness of the institutions;
       FDIC, FRB, and OCC address differences in how they notify each other when initiating EAs;
       FDIC consider the use of cease and desist orders against individuals as an additional
        enforcement tool to address safety and soundness issues; and
       FDIC issue written guidance on the issuance and publication of letters to individuals who were
        convicted of certain crimes.

Regarding PLCs, we recommended that the:
       FDIC research ways to make institutions more aware of, and mitigate the impact of, exclusions
        in financial institutions’ insurance policies that prevent or attempt to prevent the FDIC, as
        Receiver, from recovering on PLCs;
       OCC and FRB inform their regulated institutions about the risks related to insurance policy
        exclusions;
       FDIC provide more institution-specific information about PLC expenses and recoveries to
        members of its Board of Directors.

Comments from your respective agencies on a draft of this report were responsive to the
recommendations and adequately described planned actions to be taken.

If you have questions concerning this report or would like to schedule a meeting to further discuss our
evaluation results, please contact E. Marshall Gentry, FDIC OIG, at (703) 562-6378; Melissa Heist,
FRB OIG, at (202) 973-5024; or Marla A. Freedman, Department of the Treasury OIG, at
(202) 927-5400. Thank you for your assistance with this evaluation.

Attachment




                                                   2 
 
Contents


Evaluation Objectives and Approach .......................................................................... 2

Results in Brief .............................................................................................................. 3

Background ................................................................................................................... 6
  The 2008 Financial Crisis .......................................................................................... 7

Enforcement Actions Against Individuals .................................................................. 9
   Tools to Hold Individuals and IAPs Accountable ....................................................... 9
   The Regulators’ EA Processes .................................................................................. 12
   EA Activity from 2008-2012 ....................................................................................... 13
   Factors Impacting the Pursuit of EAs ........................................................................ 20
   Other Matters Pertaining to EAs ................................................................................ 25

Professional Liability Claims Against Individuals and Entities ................................ 27
   The FDIC’s Program and Process for Investigating and Pursuing PLCs ................... 27
   PLC Activity from 2008-2012 ..................................................................................... 32
   Factors Impacting the Pursuit of PLCs ...................................................................... 34
   Other Matters Pertaining to PLCs .............................................................................. 38

Agency Comments and OIG Evaluation...................................................................... 40

Appendices

    1.        Objectives, Scope, and Methodology.............................................................. 42
    2.        Regulators’ Processes for Pursuing EAs and PLCs........................................ 47
    3.        Glossary of Terms .......................................................................................... 51
    4.        Regulators’ Responses ................................................................................... 55
    5.        Major Contributors to this Report .................................................................... 63
    6.        Final Report Distribution ................................................................................. 64

Tables

    1.        Institution Failures: 2008-2012 ....................................................................... 8
    2.        Enforcement Actions Against IAPs Pertaining to 465 Failed Institutions......... 15
    3.        Description of PLC Types ............................................................................... 28
    4.        PLCs Pertaining to 465 Failed Institutions ...................................................... 33
    5.        D&O Insurance Policies with Regulatory Exclusions ...................................... 35
    6.        FDIC PLC Recoveries and Expenses: 2008-2013 ......................................... 39

Figure

    1.        Institution Failures, EAs Issued, and PLCs Completed ................................... 8

                                                                  i
                        Evaluation of Enforcement Actions and Professional Liability Claims Against
                      Institutution-Affiliated Parties and Individuals Associated with Failed Institutions
Acronyms and Abbreviations


ALJ                     Administrative Law Judge
Board                   Board of Directors
BS&R                    FRB’s Division of Banking Supervision and Regulation
CMP                     Civil Money Penalty
CRC                     Case Review Committee
DIF                     Deposit Insurance Fund
D&O                     Director and Officer
Downey                  Downey Savings and Loan Association, FA
DOJ                     Department of Justice
DRR                     FDIC’s Division of Resolutions and Receiverships
EA                      Enforcement Action
FDI Act                 Federal Deposit Insurance Act
FDIC                    Federal Deposit Insurance Corporation
FDICIA                  Federal Deposit Insurance Corporation Improvement Act of 1991
FRB                     Board of Governors of the Federal Reserve System
FSB                     Federal Savings Bank
IAP                     Institution-Affiliated Party
IndyMac                 IndyMac Bank, FSB
LLC                     Limited Liability Company
MLR                     Material Loss Review
MOU                     Memorandum of Understanding
NCUA                    National Credit Union Administration
OCC                     Office of the Comptroller of the Currency
OIG                     Office of Inspector General
OTS                     Office of Thrift Supervision
PFR                     Primary Federal Regulator
PLC                     Professional Liability Claim
PLU                     FDIC’s Professional Liability Unit
RMS                     FDIC’s Division of Risk Management Supervision
SAR                     Suspicious Activity Report
SOL                     Statute of Limitations
Treasury                Department of the Treasury
U.S.C.                  United States Code
WSRC                    OCC’s Washington Supervision Review Committee




                                                 ii
             Evaluation of Enforcement Actions and Professional Liability Claims Against
           Institutution-Affiliated Parties and Individuals Associated with Failed Institutions
                                                                                           Evaluation
OIG                                                                                         Report

Federal Deposit Insurance Corporation
Board of Governors of the Federal Reserve System and
Consumer Financial Protection Bureau
Department of the Treasury

                        July 25, 2014

                        Martin J. Gruenberg, Chairman
                        Federal Deposit Insurance Corporation

                        Janet L. Yellen, Chair
                        Board of Governors of the Federal Reserve System

                        Thomas J. Curry, Comptroller of the Currency
                        Office of the Comptroller of the Currency

                        The federal banking regulators (Regulators)1 have strong enforcement
                        powers under section 8 of the Federal Deposit Insurance Act (FDI Act)
                        to address violations of law, breaches of fiduciary duty, or unsafe and
                        unsound practices. The 2008 financial crisis had a profound and lasting
                        impact on the banking industry and broader economy, resulting in the
                        failure of 465 insured depository institutions (or institutions) through
                        2012 and losses totaling $86.6 billion to the Deposit Insurance Fund
                        (DIF). In the wake of the crisis, members of Congress, the media, and
                        the general public have questioned whether the Regulators have
                        sufficiently used these powers to hold accountable, individuals whose
                        actions harmed institutions.

                        To that end, this report presents the results of our joint evaluation of
                        (1) the Regulators’ efforts to investigate, pursue, and impose
                        enforcement actions (EAs) against institution-affiliated parties (IAP) and
                        (2) the FDIC’s efforts to pursue professional liability claims (PLCs)
                        against individuals and entities whose actions harmed institutions that
                        ultimately failed.

                        EAs address practices, conditions, or violations of law committed by
                        IAPs that, if continued, could result in loss or damage to an institution.
                        EAs can bar individuals from engaging in banking activities for life,


1
  The Regulators discussed in this report are the Federal Deposit Insurance Corporation (FDIC), the Board of
Governors of the Federal Reserve System (FRB), the Office of the Comptroller of the Currency (OCC), and the
former Office of Thrift Supervision (OTS). The OCC is a bureau of the Department of the Treasury (Treasury).
Effective July 21, 2011, the OTS was abolished and its functions were transferred to the OCC, FDIC, and FRB.
                                                           1
                      Evaluation of Enforcement Actions and Professional Liability Claims Against
                    Institutution-Affiliated Parties and Individuals Associated with Failed Institutions
                       impose monetary penalties, and/or require administrative restitution for
                       losses incurred by institutions.

                       PLCs are civil claims based on tort and breach of contract that seek
                       recovery for damages caused by former employees or professionals
                       who worked for or provided services to the failed institution. The FDIC
                       as Receiver for failed institutions, pursues PLCs and collects civil
                       judgments for receiverships. For the purposes of our report, references
                       to the FDIC in relation to PLC responsibilities refer to the FDIC in its
                       receivership capacity and not in its corporate capacity as regulator and
                       deposit insurer.


Evaluation Objectives and Approach

                       The objectives of our joint evaluation were to:

                       1.    Describe the Regulators’ processes for investigating and pursuing
                             EAs against IAPs associated with failed institutions;

                       2.    Describe the FDIC’s process for investigating and pursuing PLCs
                             against individuals and entities associated with failed institutions
                             and its coordination with the FRB and OCC;

                       3.    Determine the results of the Regulators’ efforts in investigating and
                             pursuing EAs against IAPs and the FDIC’s efforts in pursuing
                             PLCs; and

                       4.    Assess key factors that may impact the pursuit of EAs and PLCs.

                       To address our objectives, we reviewed pertinent laws, regulations,
                       policies, and procedures; researched EA and PLC activity pertaining to
                       failed institutions; interviewed Regulator officials; and assessed
                       coordination efforts within and among the Regulators. Our evaluation
                       focused on the 465 institution failures that occurred during the 5-year
                       period from 2008-2012. These institutions were regulated by the FDIC,
                       FRB, OCC, and OTS. Portions of our testing focused on a judgmental
                       sample of 63 of the 465 failed institutions that included the highest loss
                       rates as a percentage of total assets, and on which we performed
                       material loss reviews (MLR).2




2
 The 63 institutions consisted of 20 whose primary federal regulator (PFR) was the FDIC, 23 whose PFR was the
FRB, and 20 whose PFR was the OCC. Specific details on how this sample was selected are provided in
Appendix 1: Objectives, Scope, and Methodology.
                                                          2
                     Evaluation of Enforcement Actions and Professional Liability Claims Against
                    Institution-Affiliated Parties and Individuals Associated with Failed Institutions
               The EAs and PLCs discussed in this report covered the time period
               from January 1, 2008 through September 30, 2013. The data in this
               report is current as of September 30, 2013, unless otherwise noted.

               The Regulators have also imposed formal and informal EAs and other
               sanctions against financial institutions, and provided information or
               referred criminal matters to the Department of Justice (DOJ), which
               pursues criminal remedies. However, these activities were not included
               in the scope of our review, which focused on EAs against IAPs.

               Appendix 1 includes additional detail on our objectives, scope, and
               methodology, including our sample selections. Appendix 2 contains
               flowcharts depicting the Regulators’ EA and PLC processes. Appendix
               3 contains a glossary of terms used in this report. Those terms, where
               first used, are underlined. Additional appendices include the
               Regulators’ comments on this report, contributors to this report, and a
               report distribution list.

               We performed this evaluation from April 2013 through January 2014 in
               accordance with the Council of the Inspectors General on Integrity and
               Efficiency’s Quality Standards for Inspection and Evaluation.


Results in Brief

               Enforcement Actions. EAs against IAPs include removal/prohibition
               orders, civil money penalties (CMP), administrative restitution, and
               personal cease and desist orders. Removal/prohibition orders are the
               most severe actions and prohibit an IAP from participating in the affairs
               of any insured depository institution for life. Accordingly, the statutory
               criteria for sustaining a removal/prohibition order are rigorous and the
               Regulators must prove three grounds: misconduct, effect of the
               misconduct, and culpability for the misconduct. To prove culpability, the
               Regulators must show that the IAP exhibited personal dishonesty or a
               willful or continuing disregard for the safety or soundness of an
               institution. Proving willful or continuing disregard is particularly difficult,
               according to the Regulators.

               The Regulators each have similar, formal processes to investigate and
               impose EAs on IAPs whose actions harmed institutions. These
               processes generally include an investigative period, agency review, an
               opportunity for the IAP to consent to the action, and a Notice of
               Charges if the IAP does not consent. A Notice of Charges triggers a
               review by an Administrative Law Judge (ALJ), followed by an agency
               decision, and potentially an IAP appeals process. Various divisions and
               offices within each agency coordinate with each other in pursuing EAs.

                                                  3
             Evaluation of Enforcement Actions and Professional Liability Claims Against
            Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                       The Regulators issued 275 EAs against individuals associated with
                       87 failed institutions, or 19 percent of the 465 institutions that failed.
                       The majority of these EAs were imposed against institution directors
                       and officers. As of September 30, 2013, potential EAs against IAPs
                       were in-process related to an additional 59 failed institutions. These
                       EAs will ultimately be closed-out or imposed.

                       Of the total 275 EAs imposed, 128 were removal/prohibition orders
                       against IAPs associated with 75 institutions (16 percent of the 465 failed
                       institutions). This is an increase over the banking crisis of the 1980s
                       and early 1990s where the Regulators imposed removal/prohibition
                       orders against IAPs associated with about 6 percent of the institutions
                       that failed from 1985 through 1995.

                       Removal/prohibition orders may be based on personal dishonesty or
                       willful or continuing disregard for the safety or soundness of the
                       institution. Most of the removal/prohibition orders issued by the
                       Regulators included personal dishonesty as a basis for the action. The
                       Regulators brought very few removal/prohibition orders based solely on
                       willful or continuing disregard for safety or soundness. In this respect,
                       we observed that most of our MLRs concluded that management did
                       not operate institutions in a safe and sound manner, which contributed
                       to institution failure. Most commonly, we reported that these failures
                       were caused by the institutions’ management strategy of aggressive
                       growth that concentrated assets in commercial real estate loans, which
                       was often coupled with inadequate risk management practices for loan
                       underwriting, credit administration, and credit quality review.3

                       Several factors appeared to impact the Regulators’ ability to pursue
                       EAs against IAPs. Those factors included the rigorous statutory criteria
                       for sustaining removal/prohibition orders; the extent to which each
                       Regulator was willing to use certain EA tools, such as personal cease
                       and desist orders; the Regulators’ risk appetite for bringing EAs; EA
                       statutes of limitation (SOL); and staff resources, among other things. In
                       connection with these factors, we are making recommendations related
                       to evaluating approaches and developing methodologies to support
                       issuing EAs against IAPs where the Regulators can show that IAPs
                       exhibited a willful or continuing disregard for safety or soundness and
                       increasing the use of personal cease and desist orders.

                       We also identified other matters warranting the Regulators’ attention.
                       Specifically, the FDIC should issue guidance on the issuance and

3
 Comprehensive Study on the Impact of the Failure of Insured Depository Institutions, Report EVAL-13-002, dated
January 2013.

                                                          4
                     Evaluation of Enforcement Actions and Professional Liability Claims Against
                    Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                       publication of letters to individuals who were convicted of certain
                       crimes. In addition, the Regulators should address differences in how
                       they notify each other when initiating EAs against IAPs and depository
                       institutions.

                       Professional Liability Claims. The purpose of the professional liability
                       program is to maximize recoveries to receiverships and hold
                       accountable directors, officers, and other professionals that caused
                       losses to failed depository institutions. The FDIC investigates PLCs
                       pertaining to all failed depository institutions, regardless of whether the
                       PFR was the FDIC, FRB, OCC, or OTS.

                       When an institution fails, the FDIC acquires a group of legal rights,
                       titles, powers, and privileges, which include PLCs. The FDIC’s
                       Professional Liability Unit (PLU) is responsible for the FDIC’s
                       Professional Liability Program. PLU and the Investigations Department
                       within the FDIC’s Division of Resolutions and Receiverships (DRR)
                       investigate 11 claim areas for each institution failure and pursue PLCs
                       that are both meritorious and expected to be cost-effective. For a PLC
                       to have merit, the FDIC must meet the burden of proof required by the
                       federal or state law that applies to the claim. For a typical tort claim, the
                       FDIC generally must show that the subject individual or entity owed a
                       duty to the institution, breached that duty, and the breach caused a loss
                       to the institution. Officials told us that the threshold for misconduct to
                       sustain a PLC can be lower than that for a removal/prohibition order.

                       To collect on these claims, the FDIC typically must sue the
                       professionals responsible for the losses resulting from their breaches of
                       duty to the failed institution. Recovery sources include liability
                       insurance policies, fidelity bond insurance policies, and the assets of
                       the individuals or entities pursued.

                       The FDIC has a formal process for investigating and pursuing PLCs.
                       During 2013, the FDIC made significant improvements in the
                       coordination and sharing of PLC information between the PLU and
                       Enforcement groups, other FDIC divisions and offices, and the other
                       PFRs.

                       The FDIC completed 430 PLCs4 and had an additional 305 pending a
                       final result based on litigation or negotiation as of September 30, 2013.
                       In total, the 735 completed and pending PLCs were associated with 193
                       of the 465 failed institutions (42 percent).


4
 Completed PLCs comprised settlements and court judgments to pay the FDIC and cases dismissed by the
courts. Of the 430 completed PLCs, 379 resulted from settlements, 32 resulted from court judgments, and 19 were
dismissed. Table 4 provides additional detail on the PLCs pertaining to the 465 failed institutions.
                                                          5
                     Evaluation of Enforcement Actions and Professional Liability Claims Against
                    Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                Of the 735 completed and pending PLCs, 162 pertained to directors
                and officers associated with 154 of the 465 failed institutions
                (33 percent). During the banking crisis of the 1980s and early 1990s,
                the FDIC brought claims against directors and officers in 24 percent of
                the failed institutions.

                A key factor impacting the pursuit of PLCs was an increasing number of
                exclusions that insurers inserted into insurance policies, which excluded
                or attempted to exclude coverage for claims made by the FDIC. Other
                factors include meeting applicable federal or state law standards in
                support of meritorious claims, limited recovery resources, and a court
                decision pertaining to another agency that resulted in the FDIC limiting
                its use of tolling agreements to extend the SOL on PLCs.

                We are recommending that the FDIC research ways to make
                institutions more aware of, and mitigate the impact of, insurance policy
                exclusions. In addition, we are recommending that the OCC and FRB
                inform their regulated institutions about the risks related to insurance
                policy exclusions.

                In evaluating the FDIC’s PLC process, we noted improvements that
                could be made in the Corporation’s tracking and reporting of PLC
                expense and recovery information. In that regard, our report includes a
                recommendation that the FDIC take steps to provide more institution-
                specific information to members of its Board of Directors (Board).


Background

                Section 8 of the FDI Act grants authority to the Regulators to impose
                formal EAs against IAPs and depository institutions. Each of the
                Regulators has enforcement units within their legal divisions that
                administer and develop EAs against IAPs. These enforcement units
                work closely with risk management examiners to develop evidence to
                support EAs. The Regulators have jurisdictional authorities as follows:

                   The FDIC is authorized to impose EAs against IAPs of state-
                    chartered institutions that are not members of the Federal Reserve
                    System. There were 289 failed state nonmember institutions within
                    the scope of our review. The FDIC, as insurer, is also authorized to
                    use its back-up enforcement authority under certain circumstances
                    to impose EAs against IAPs of any insured depository institution.

                    The FRB is authorized to impose EAs against IAPs of state-
                    chartered institutions that are members of the Federal Reserve


                                                   6
              Evaluation of Enforcement Actions and Professional Liability Claims Against
             Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                           System and bank holding companies.5 There were 49 failed state
                           member institutions supervised by the FRB within the scope of this
                           review.

                          The OCC is authorized to impose EAs against IAPs associated with
                           (1) national banks, (2) federal branches and agencies of foreign
                           institutions, and (3) federally chartered savings associations and
                           their subsidiaries. There were 79 failed national banks within the
                           scope of our review.

                       The FDIC’s PLU is responsible for the FDIC’s Professional Liability
                       Program. PLU and DRR investigate every institution failure and pursue
                       PLCs that are both meritorious and expected to be cost-effective.

                       The FDIC’s PLU was formed in 1989 and the FDIC’s authority to pursue
                       PLCs comes from requirements in the FDI Act to maximize recoveries
                       from receivership assets.

                       The 2008 Financial Crisis

                       Following years of poor underwriting practices and aggressive growth,
                       the residential and commercial real estate markets declined significantly
                       in 2007, setting off a string of events that led to a full-blown financial
                       crisis. The 2008 financial crisis resulted in the collapse of large entities
                       such as Lehman Brothers, necessitated government assistance to other
                       institutions, and led to the failure of 465 institutions through
                       December 31, 2012, and associated DIF losses of $86.6 billion.

                       When an institution’s failure results in a material loss to the DIF, the FDI
                       Act requires the appropriate Inspector General to conduct an MLR to
                       determine the cause of the failure and assess the regulator’s
                       supervision of the institution. Many of our MLRs concluded that
                       management did not operate institutions in a safe and sound manner,
                       which contributed to institution failures. Table 1 depicts the number of
                       failed institutions and MLRs conducted.




5
 The FRB also has authority to impose EAs against IAPs of nonbank subsidiaries of bank holding companies,
Edge Act and agreement corporations, and certain foreign banking organizations.
                                                          7
                     Evaluation of Enforcement Actions and Professional Liability Claims Against
                    Institution-Affiliated Parties and Individuals Associated with Failed Institutions
Table 1: Institution Failures: 2008-2012
       Year              FDIC       FRB             OCC          OTS          Total
       2008               14         1              5              5          25
       2009               79         16             25             20         140
       2010               99         17             23             18         157
       2011               64         11             12             5          92
       2012               33         4              14             0          51
                         289         49             79             48         465
      Total
                    (96 MLRs)     (23 MLRs)           (53 MLRs)*           (172 MLRs)
Source: Analysis of information obtained from the FDIC’s Division of Finance.
* The 53 MLRs covered 26 OCC supervised institutions and 27 OTS-supervised
institutions.

   Consistent with the increase in failures, and starting in 2009, there was
   an increase in the number of issued EAs and completed PLCs. The
   increase in EAs and PLCs lagged behind the increase in institution
   failures due to the amount of time that it takes to investigate and
   process these actions. Figure 1 presents statistics on the number of
   institution failures and number of EAs and PLCs associated with failed
   institutions.

Figure 1: Institution Failures, EAs Issued, and PLCs Completed

            180
            160
            140
            120
   Number




            100
             80
                                                                            Failures
             60
             40                                                             PLCs
             20                                                             EAs
              0
                  2008     2009   2010       2011    2012     2013
                                                            (through
                                                              Sept.)
                                      Year


Source: FDIC OIG analysis of FDIC, FRB, and OCC data.
Note: An EA typically pertains to one individual but sometimes multiple individuals.
A PLC typically pertains to multiple individuals and entities.




                                         8
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
Enforcement Actions Against Individuals

                          Tools to Hold Individuals and IAPs Accountable

                          The primary means for addressing supervisory concerns at institutions
                          is through the ordinary course of routine examinations. However, when
                          a supervised institution exhibits unsafe or unsound practices or where
                          the practice or an alleged violation of law is so widespread or serious
                          that normal recourse to ordinary supervisory methods are not
                          appropriate or sufficient, the Regulators may use their authority to take
                          formal EAs against institutions or IAPs.

                          An IAP includes a director, officer, employee, or controlling shareholder
                          of, or agent for, an institution as well as an independent contractor
                          (such as an attorney, appraiser, or accountant). The Regulators have
                          broad discretion in determining the appropriate enforcement remedies
                          to address misconduct committed by insiders and deter others from
                          performing illegal acts. These remedies are listed below.

                          Removal/Prohibition Orders. Pursuant to section 8(e)(1) of the FDI
                          Act, these orders result in the removal of IAPs from banking and
                          prohibit them from participating in any affairs of any insured depository
                          institution for life. This remedy imposes an industry-wide ban designed
                          to protect the banking industry. The SOL to commence these actions6 is
                          generally 5 years from the date of the misconduct or the date the
                          institution incurred a loss.

                          To pursue these actions, the Regulators must obtain evidence of three
                          grounds, each of which contain several elements, as described below.
                          At least one element from each of the three grounds must be proven to
                          pursue this EA.

                             Misconduct

                                  o The individual violated any law or regulation, cease-and-
                                    desist order that has become final, written agreement, or
                                    condition imposed in writing by a federal banking agency in
                                    connection with any action on any application, notice, or
                                    request by the institution or IAP;
                                  o The individual engaged or participated in any unsafe or
                                    unsound practice in connection with the institution; or
                                  o The individual committed or engaged in any act, omission, or
                                    practice constituting a breach of that person’s fiduciary duty.


6
    Commencing formal EAs consists of issuing a Notice of Charges or Stipulated Order.
                                                             9
                        Evaluation of Enforcement Actions and Professional Liability Claims Against
                       Institution-Affiliated Parties and Individuals Associated with Failed Institutions
      Effect of the Misconduct

           o The institution suffered or will probably suffer financial loss or
             other damage,
           o Interests of the institution’s depositors have been or could be
             prejudiced, or
           o The individual received financial gain or other benefit.

      Culpability for the Misconduct

           o The individual exhibited personal dishonesty, or
           o The individual demonstrated a willful or continuing disregard
             for the safety or soundness of the institution.

   Civil Money Penalties. Pursuant to section 8(i)(2) of the FDI Act, the
   Regulators may impose CMPs on IAPs or depository institutions for
   engaging in improper conduct while employed or contracted by an
   institution. Collections resulting from all CMPs are remitted to the
   Treasury. The SOL to commence these actions is generally 5 years
   from the date of the misconduct and the SOL to collect is generally
   5 years after an order is issued.

   For most misconduct, CMPs are divided into three tiers with
   increasingly higher penalties for more egregious conduct. Penalties
   associated with tiers 1, 2, and 3 can be as high as $7,500, $37,500, and
   $1,425,000, respectively, per day for each day of the violation. The FDI
   Act requires Regulators to consider four mitigating factors in
   determining the appropriateness of a penalty: (1) the available
   resources and good faith of the person charged, (2) the gravity of the
   violation, (3) the history of previous violations, and (4) such other
   matters as justice may require.

   Administrative Restitution. Section 8(b)(6) of the FDI Act grants the
   Regulators the authority to issue cease and desist orders requiring IAPs
   to make restitution to repay losses incurred by institutions as a result of
   their actions. Collections resulting from restitution orders are paid to the
   institutions unless they failed, in which case, they are paid to the FDIC.
   There is no express SOL to bring these orders.

   To pursue administrative restitution, the Regulators must prove that:

      The IAP or depository institution was unjustly enriched (e.g.,
       accepted and retained a benefit) in connection with a violation or
       practice; or



                                     10
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                           The violation or practice involved a reckless disregard for the law or
                            any applicable regulations or prior order of the appropriate federal
                            banking agency.

                        Cease and Desist Orders. A cease and desist order pursuant to
                        section 8(b) of the FDI Act is a supervisory response to an immediate,
                        present, or ongoing unsafe and unsound practice, violation of law or
                        regulation, or violation of written condition on the part of a depository
                        institution or IAP, in an attempt to control and put a stop to the behavior
                        or practice that is harming an institution. These orders require parties
                        to stop engaging in certain violations or practices and affirmative action
                        to correct the conditions resulting from any such violation or practice.
                        Affirmative action may require an institution or IAP to make restitution or
                        provide reimbursement, indemnification, or a guarantee against loss.

                        While cease and desist orders are often issued to institutions, they may
                        also be issued to IAPs (herein referred to as personal cease and desist
                        orders). There is no express SOL to commence cease and desist
                        orders; however, the Regulators lose the ability to commence an action
                        against an individual 6 years after the individual leaves the subject
                        institution.

                        To pursue personal cease and desist orders, the Regulators must prove
                        that the IAP:

                           Is engaging in, has engaged, or is about to engage in an unsafe or
                            unsound practice pertaining to a depository institution, or

                           Is violating, has violated or is about to violate a law, rule, regulation,
                            or any condition imposed in writing.

                        The OCC and FRB issue (and the OTS issued) personal cease and
                        desist orders against IAPs. However, the FRB had not issued any such
                        orders pertaining to the failed institutions under its supervision that were
                        included in this evaluation. As discussed later in this report, the FDIC
                        currently does not use personal cease and desist orders.

                        Formal Letters. In addition to pursuing the EAs against IAPs
                        discussed above, the Regulators have issued formal letters7 to
                        individuals who were convicted of covered offenses, pursuant to section
                        19 of the FDI Act (12 U.S.C. § 1829). Section 19 generally prohibits a
                        person convicted of any criminal offense involving dishonesty, breach of
                        trust, or money laundering (covered offenses) from working in any

7
  The FDIC and FRB refer to formal letters as section 19 letters and the OCC refers to them as 1829 prohibition
letters. For simplicity, this report uses the term formal letters.
                                                          11
                      Evaluation of Enforcement Actions and Professional Liability Claims Against
                     Institution-Affiliated Parties and Individuals Associated with Failed Institutions
   affairs of an insured depository institution or bank holding company.
   The ban is for life unless an exception is granted through consent by
   the FDIC. For certain offenses, an exception cannot be granted for
   10 years following the date of conviction, except by order of the
   sentencing court.

   Formal letters reiterate existing prohibitions and do not impose any
   additional constraints. If after receiving a formal letter, a person
   reenters the banking industry in violation of 12 U.S.C. § 1829, he or she
   does so “knowingly,” and may therefore be subject to criminal sanctions
   and/or penalties.

   The Regulators typically identify such persons by reviewing suspicious
   activity reports (SAR), through routine bank examinations, from
   institution personnel, or as a result of the prosecution process initiated
   by DOJ or other law enforcement officials. EA investigations may also
   identify a condition warranting a formal letter.

   The Regulators may elect to issue a formal letter in lieu of a
   removal/prohibition order. FDIC officials prefer to impose a
   removal/prohibition order, if appropriate, but may issue a formal letter if
   the FDIC learns of an offense after a removal/prohibition SOL has
   expired or when it is otherwise unable to impose a removal/prohibition
   order. The OCC considers whether there was a related prohibited
   transaction amounting to at least $5,000 when deciding whether to
   issue a formal letter. The FRB will consider issuing a formal letter if it
   learns of a conviction or a plea agreement involving certain criminal
   offenses related to the individual’s role at the banking organization.

   The Regulators’ EA Processes

   The FDIC, FRB, and OCC each have a formal process for pursuing EAs
   and a flowchart of each Regulator’s process is provided in Appendix 2.

   There are several similarities in each Regulator’s process for
   investigating and pursuing EAs against IAPs. The Regulators generally
   identify issues that may warrant EAs through routine oversight activities
   such as conducting examinations and reviewing SARs, from institution
   employees and customers, and from contact with other supervisory
   agencies or law enforcement officials. After reviewing the initial
   information, the Regulators may initiate an investigation if they believe
   there is sufficient evidence to pursue an EA. As part of the
   investigation, the Regulators interview witnesses, take sworn
   testimonies, and compel the production of relevant documents
   necessary to establish a legal basis for an EA. If there is sufficient


                                     12
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                       evidence, the Regulators provide the respondents with the opportunity
                       to consent to an EA. Most cases are settled through consent.

                       If the respondent refuses to consent, the Regulator files a Notice of
                       Charges against the IAP with the Office of Financial Institution
                       Adjudication8 and an administrative hearing process is initiated. The
                       ALJ assigned to the Regulators reviews the case documents, the IAP
                       has an opportunity to respond to the Notice of Charges, a public
                       hearing is held, and the ALJ issues a recommended decision. The
                       FDIC’s Board, the FRB, or the Comptroller of the Currency reviews the
                       case materials, the ALJ’s recommendation, and makes a final decision
                       about whether to issue an order against an IAP.9 Respondents have
                       the right to appeal to the federal courts.

                       Throughout the process, various divisions within each Regulatory
                       agency coordinate with each other. If at any point the Regulators
                       determine that there is insufficient information to pursue an EA, it is
                       closed out. The Regulators publicize EA activity, in accordance with
                       section 8(u) of the FDI Act and report EA activity to their agency’s
                       executive management and in their annual reports, which are provided
                       to Congress.

                       Beginning in 2010, the FDIC established expectations for the timely
                       handling and disposition of cases once they have been opened and has
                       consistently met these expectations. The FRB and OCC do not have or
                       plan to establish similar metrics.

                       EA Activity from 2008-2012

                       For the 465 institutions that failed from 2008 through 2012, the Regulators
                       issued a total of 275 EAs pertaining to 87 institutions (19 percent), as
                       follows:

                          128 removal/prohibition orders,
                          120 CMPs,
                          8 administrative restitution orders, and
                          19 personal cease and desist orders.




8
  The Office of Financial Institution Adjudication is an executive body charged with overseeing administrative
enforcement proceedings of the FDIC, FRB, OCC, and National Credit Union Administration (NCUA). One ALJ is
assigned to and hears all cases presented by the FDIC, FRB, OCC, and NCUA. This ALJ reports to an oversight
committee comprised of members from the FDIC, FRB, OCC, and NCUA.
9
  For the EAs discussed in this report that went before an ALJ, all of the Regulators have upheld the ALJ’s
recommended actions in making the final decision on whether to pursue EAs.
                                                         13
                     Evaluation of Enforcement Actions and Professional Liability Claims Against
                    Institution-Affiliated Parties and Individuals Associated with Failed Institutions
   Additionally, as of September 30, 2013, the FDIC, FRB, and OCC had
   potential EAs against IAPs in-process at an additional 59 institutions.
   These EAs will ultimately be imposed or closed-out.

   The FRB and OCC issued formal letters to 14 individuals affiliated with
   9 failed institutions. The FDIC and OTS had not issued any formal letters
   associated with the failed institutions that they supervised.

   In two instances, the FDIC used its back-up enforcement authority under
   section 8(t) of the FDI Act and the Federal Deposit Insurance Corporation
   Improvement Act of 1991 (FDICIA) to pursue EAs against five former
   directors and officers from two institutions that were previously regulated by
   the OTS.

   Table 2 shows EAs imposed against IAPs by each of the Regulators.




                                     14
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
Table 2: Enforcement Actions Against IAPs Pertaining to 465 Failed Institutions
                                                 EA Activity                       Totals: All Regulators
   Sanction       Regulator                                                       by EA Type (adjusted for
                                                               Associated
                                        IAPs                                            duplication)
                                                               Institutions

                     FDIC                86a                       53a

   Removal/          FRB                   4                        2              128 EAs issued to IAPs
  Prohibition                                                                         associated with
    Order            OCC                 19b                       14b                 75 institutions.

                     OTSd                 19                        7

                     FDIC         63 for $4.1 million              26

    Civil            FRB                   0                        0              120 EAs issued to IAPs
   Money                                                                               associated with
   Penalty           OCC        28 for $1.69 millionb              12b                 42 institutions.

                     OTSd          29 for $195,500                  5

                     FDIC          5 for $284,000                   2

                     FRB                   0                        0               8 EAs issued to IAPS
Administrative
                                                                                       associated with
 Restitution
                     OCC           3 for $728,000                   3                   5 institutions.

                    OTSc,d                 0                        0

                     FDIC                  0                        0
   Personal
  Cease and          FRB                   0                        0               19 EAs issued to IAPs
 Desist Order                                                                          associated with
   Against           OCC                  15                        5                   6 institutions.
    an IAP
                     OTSd                  4                        1


    Totals
                     All                       There were a total of 275 EAs issued against
 (adjusted for
                  Regulators                     218 IAPs associated with 87 institutions.
  duplication)
Source: Generated by the FDIC OIG based on information from FDIC, FRB, and OCC management
officials and the agencies’ public Web sites. Data is as of September 30, 2013.
a
  Includes removal/prohibition orders issued by the FDIC to five former officers and directors of two institutions
  formerly supervised by the OTS. In issuing these orders, the FDIC exercised its back-up enforcement authority.
b
  Includes one removal/prohibition order and one CMP issued by the OCC to an institution formerly supervised by
  the OTS.
c
  We were unable to locate information pertaining to any administrative restitution orders issued by the OTS.
d
  OTS activity from January 1, 2008 through July 21, 2011, when the OTS was abolished.




                                                          15
                      Evaluation of Enforcement Actions and Professional Liability Claims Against
                     Institution-Affiliated Parties and Individuals Associated with Failed Institutions
   Summary information for each Regulator follows:

   FDIC: The FDIC issued 154 EAs against 122 IAPs associated with
   58 institutions (20 percent of 291 failed institutions: 289 regulated by the
   FDIC and 2 formerly supervised by the OTS). Specifically the FDIC issued:

      Removal/prohibition orders to 79 directors and officers and seven other
       employees.
      CMPs against 63 former bank directors and officers, for amounts
       ranging from $500 to $1.3 million.
      Administrative restitution penalties to five directors, for amounts ranging
       from $4,000 to $225,000.

   FRB: The FRB issued four EAs against four IAPs associated with two
   institutions (4 percent of the 49 failed institutions regulated by the FRB).
   Specifically, the FRB issued:

      Removal/prohibition orders to four bank officers.

   Additionally, the FRB issued formal letters to six individuals (three officers,
   one bank teller, and two unknown) affiliated with four institutions.

   OCC: The OCC issued 65 EAs against 41 IAPs associated with 17
   institutions (21 percent of 80 failed institutions: 79 regulated by the OCC
   and 1 formerly regulated by the OTS). Specifically the OCC issued:

      Removal/prohibition orders to 18 directors and officers and one
       assistant manager.
      CMPs to 28 directors and officers, for amounts ranging from $5,000 to
       $1 million. The $1 million CMP was imposed against a former
       President of an institution regulated by the OTS.
      Administrative restitution penalties to three directors and officers.
      Personal cease and desist orders to 15 directors and officers.

   Additionally, the OCC issued formal letters to eight individuals associated
   with five institutions (three officers, two managers, and three lower-level
   employees). One of these letters was to an employee of an institution
   formerly regulated by the OTS.

   OTS (January 1, 2008 through July 21, 2011): The OTS issued 52 EAs
   against 51 IAPs associated with 11 institutions (23 percent of the 48 failed
   institutions formerly regulated by the OTS). Specifically, the OTS issued:

      Removal/prohibition orders to 19 IAPs (five to directors and officers and
       most of the others to lower-level employees such as tellers, branch
       managers, and consultants).
                                     16
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
      CMPs against 29 former bank directors, for amounts ranging from $500
       to $50,000.
      Personal cease and desist orders against four former bank directors
       associated with one institution.

   Comparison of Current and Historical EA Data. As noted above, during
   the 2008 financial crisis, the Regulators imposed removal/prohibition EAs
   against individuals affiliated with 75 out of 465 institutions (16 percent). As
   of September 30, 2013, potential EAs against IAPs were in-process at an
   additional 59 institutions (25, 8, and 26 institutions regulated by the FDIC,
   FRB, and OCC, respectively). These EAs will ultimately be imposed or
   closed-out. We also looked at removal/prohibition EAs imposed on IAPs
   affiliated with institutions that failed over the 11-year period from 1985
   through 1995. During this period, 1,375 FDIC, FRB, and OCC-regulated
   institutions failed and removal/prohibition EAs were imposed on IAPs
   affiliated with 79 institutions (6 percent), as follows:

      FDIC: 34 out of 682 failures (5 percent),
      FRB: 3 out of 108 failures (3 percent), and
      OCC: 42 out of 585 failures (7 percent).

   Accordingly, during the 2008 financial crisis, the FDIC, FRB, and OCC
   experienced an increase in the percentage of failed institutions for which
   they pursued removal/prohibition orders against IAPs.

   Criminal Sanctions. While not a focus of this report, the Regulators have
   shared information with or referred criminal matters to the DOJ, which
   obtained convictions against 44 individuals (36 of whom were bank
   officers) associated with 25 of the 465 failed institutions included in this
   evaluation.

   The DOJ obtained 3,674 criminal restitution orders imposing $280.8 million
   in monetary judgments against individuals associated with the 465 failed
   institutions. In these cases, the FDIC requested to be named a victim in
   the restitution orders.

   Over the 6-year period from 2008 through 2013, the FDIC received
   $29.4 million in criminal restitution and forfeiture collections.




                                     17
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
   The FDIC’s Use of Back-up Enforcement Authority. Under certain
   circumstances, section 8(t) of the FDI Act and FDICIA permit the FDIC to
   engage in back-up enforcement action pertaining to all insured depository
   institutions, depository institution holding companies, and IAPs. Thus, the
   FDIC is permitted to pursue EAs against IAPs where the related institutions
   are or were regulated by a PFR other than the FDIC. While the PFR
   typically pursues EAs against IAPs, the FDIC may invoke its back-up
   enforcement authority under circumstances when the PFR consents or the
   FDIC believes that the PFR has not timely pursued an EA in response to a
   recommendation from the FDIC.

   The FDIC used back-up enforcement authority to pursue EAs in two
   instances, as noted below. In both instances, the institutions were
   originally regulated by the OTS and subsequently by the OCC when the
   OTS was abolished. The FDIC and OCC consulted about the FDIC’s use
   of back-up enforcement authority prior to the FDIC’s decision to implement
   this authority.

   Downey Savings and Loan Association, FA (Downey). Downey failed and
   was closed by the OTS on November 21, 2008, and the FDIC was
   appointed as Receiver.

   The primary causes of Downey’s failure were the thrift’s high
   concentrations in single-family residential loans, which included
   concentrations in option adjustable rate mortgage loans, reduced
   documentation loans, subprime loans, and loans with layered risk;
   inadequate risk-monitoring systems; the thrift’s unresponsiveness to OTS’
   recommendations; and high turnover in the thrift’s management.

   The FDIC exercised its back-up enforcement authority based on the results
   of a preliminary investigation where the FDIC concluded that
   Downey extensively underwrote negative amortization loans, which
   constituted reckless and risky behavior that put customers at risk.

   In June 2012, four of Downey’s former directors and officers each
   stipulated and consented to removal/prohibition orders that prohibited them
   from participating in any banking affairs for life. Additionally, the FDIC
   recovered $31.9 million as a result of a separate PLC settlement
   agreement with these four and other former Downey directors and officers.
   At the same time, the FDIC, in its corporate capacity, released these four
   directors and officers from the imposition of any additional EAs and seven
   former directors and officers from the imposition of any EAs.

   IndyMac Bank, FSB (IndyMac). IndyMac failed and was closed by the OTS
   on July 11, 2008, and the FDIC was named conservator.


                                     18
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
   The primary causes of IndyMac’s failure were the institution’s aggressive
   growth strategy, high concentration of Alt-A loans, insufficient underwriting,
   credit concentrations in residential real estate in the California and Florida
   markets, and heavy reliance on costly funding sources and brokered
   deposits.

   The magnitude of IndyMac’s loss and concerns about the institution’s
   management prompted the FDIC to exercise its back-up enforcement
   authority. In December 2012, the institution’s former Chairman and Chief
   Executive Officer stipulated and consented to a removal/prohibition order.
   Additionally, the FDIC separately settled pending PLC litigation against the
   same officer for $12 million.

   Types of Actions Warranting EAs. Removal/prohibition orders may
   be based on personal dishonesty or willful or continuing disregard for
   the safety or soundness of the institution. Most of the
   removal/prohibition orders issued by the Regulators included personal
   dishonesty as a basis for the action. The Regulators brought very few
   removal/prohibition orders based solely on willful or continuing
   disregard for safety or soundness.

   EAs against IAPs were issued in response to actions such as making false
   entries in institution financial statements, embezzlement, misappropriation,
   creating false invoices and other documents, forgery, participating in
   counterfeit check schemes, accepting illegal cash payments, knowingly
   underwriting loans containing fraudulent documentation, making unsound
   loans, using institution funds to pay for personal expenses, misapplying
   funds, obstructing a bank examination, intentional financial misstatements
   to make the institution’s performance look better, and concealing the true
   source of an illegal capital infusion.

   EAs also referenced safety or soundness such as the failure of institutions
   to: change lending strategies based on warnings that certain credit
   concentrations were too high, monitor brokered loan activities, adhere to
   state lending limits, comply with institution lending policies, and disclose
   conflicts of interest.

   In this respect, most of our OIG MLRs covering 142 failed institutions
   concluded that management did not operate institutions in a safe and
   sound manner, which contributed to institution failures. Most commonly,
   we reported that these institution failures were caused by the institutions’
   management strategy of aggressive growth that concentrated assets in
   commercial real estate loans, which was often coupled with inadequate risk
   management practices for loan underwriting, credit administration, and
   credit quality review. However, the Regulators have held very few
   individuals associated with failed institutions accountable for safety or

                                     19
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
   soundness issues when a finding of dishonesty was not present. Notably,
   the OCC and the OTS issued personal cease and desist orders to address
   safety or soundness issues associated with failed institutions covered by
   our evaluation.

   As discussed in the next section, we are recommending that the
   Regulators develop methodologies for issuing removal/prohibition EAs that
   can be supported by the willful or continuing disregard for safety or
   soundness element.

   Factors Impacting the Pursuit of EAs

   Based on our research and interviews with the Regulators, we identified
   the following factors that have impacted the Regulators’ ability to pursue
   EAs.

   Statutory Requirements. The Regulators noted that a factor impacting
   the frequency of removal/prohibition EAs against individuals associated
   with failed institutions is the rigorous statutory criteria for imposing these
   EAs. The Regulators stated that even if an IAP acted poorly or made
   negligent business decisions that resulted in losses to an institution, such
   conduct does not provide enough evidence to show that the IAP acted with
   the required intent, according to the statute.

   As stated previously, to pursue a removal/prohibition order, the Regulators
   must obtain evidence of the following three statutory criteria, each of which
   contains several elements:

      Misconduct,
      Effect of the Misconduct, and
      Culpability for the Misconduct.

   To prove the last criterion, “culpability for the misconduct,” the Regulators
   must show that the individual (1) exhibited personal dishonesty or (2)
   demonstrated a willful or continuing disregard for the safety or soundness
   of the institution. The second element (willful or continuing disregard) can
   be particularly difficult to prove in support of a removal/prohibition order,
   according to the Regulators.

   Court opinions have opined as follows with regards to the elements to
   satisfy culpability:

           “Before [a Regulator] may impose the ultimate sanction of a
           Prohibition Order against a banker that forever bans him or
           her from working in the American banking industry, the


                                     20
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                                 [Regulator] must show a degree of culpability well beyond
                                 mere negligence, i.e., there must be a showing of scienter.”10

                        With regards to personal dishonesty and a willful or continuing disregard for
                        the safety or soundness of an institution:

                                 “These standards of culpability require some showing of
                                 scienter. The term ‘personal dishonesty’ has been held to
                                 mean a disposition to lie, cheat, defraud, misrepresent, or
                                 deceive. It also includes a lack of straightforwardness and a
                                 lack of integrity.”11

                                 Willful disregard has been defined as “deliberate conduct
                                 which exposed the bank to abnormal risk of loss or harm
                                 contrary to prudent banking practices.” Continuing disregard
                                 has been defined as conduct which has been “voluntarily
                                 engaged in over a period of time with heedless indifference to
                                 the prospective consequences."12

                        OCC officials stated that in a large number of cases, the factual record
                        does not provide a basis to meet the culpability requirements noted above
                        and these requirements have posed a significant obstacle to pursuing
                        removal/prohibition orders.

                        OCC officials also noted that the definition of “unsafe and unsound,”
                        utilized by certain Federal circuit courts has posed obstacles to pursuing
                        removal/prohibition orders. For example, the United States Court of
                        Appeals for the Fifth Circuit held that unsafe and unsound practices are
                        limited to “practices with a reasonably direct effect on an association’s
                        financial soundness.”13 The Court further explained that such effects must
                        bear a relationship to an institution’s financial integrity and the
                        government’s insurance risk. An OCC official noted that this formulation
                        suggests that only those acts or practices that threaten the continued
                        viability of an insured institution rise to the level of unsafe and unsound
                        practices. Such a standard would not include acts or practices that
                        threaten significant loss or damage to an institution if they do not also
                        threaten its viability.




10
   Kim v. Office of Thrift Supervision, 40 F.3d 1050 (9th Cir. 1994). The term scienter refers to a state of mind
often required to hold a person accountable for his or her acts. Scienter denotes a level of intent or knowledge
than an act was wrong or deceptive.
11
   Michael v. FDIC, 687 F. 3d 337 (7th Cir. 2012).
12
   Grubb v. FDIC, 34 F. 3d 956 (10th Cir. 1994).
13
   Gulf Federal Savings and Loan Association of Jefferson Parish v. Federal Home Loan Bank Board, 651 F.2d
259 (5th Cir. 1981).
                                                          21
                      Evaluation of Enforcement Actions and Professional Liability Claims Against
                     Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                       The Regulators noted that because removal/prohibition orders permanently
                       remove IAPs from banking, thus, taking away their livelihood, it is
                       appropriate for the legal standards to be rigorous.

                       In 2011, we reported that the Regulators often did not address risky
                       behavior at institutions until financial and/or capital decline occurred.14 This
                       practice resulted in supervisory actions that were taken too late for many of
                       the institutions that failed during the 2008 financial crisis. Additionally,
                       during our current evaluation, we learned that this practice made it
                       challenging for the Regulators to support a finding of willful or continuing
                       disregard for safety or soundness against former IAPs.

                       At the time of this evaluation, the FDIC’s Division of Risk Management
                       Supervision (RMS) and Legal Division were working on a strategy for
                       documenting instances of willful or continuing disregard for safety or
                       soundness in order to successfully pursue removal/prohibition orders that
                       include this element. We believe that each of the Regulators could benefit
                       from developing guidance in this area to proactively address risky behavior
                       or document willful or continuing disregard in the event that such behavior
                       persists.15 Documenting such actions as they occur and ensuring
                       adequate coordination between agencies’ legal and examination units on
                       this matter could make it easier to later sustain the willful or continuing
                       disregard element of a removal/prohibition EA.

                       We recommend that the FDIC, FRB, and OCC:

                       1. Evaluate existing authorities, legal precedents, and supervisory
                          approaches and establish and communicate, as appropriate,
                          methodologies in which examination results and documentation can
                          support the pursuit of removal/prohibition orders based on willful or
                          continuing disregard for safety or soundness of an institution. Such
                          methodologies may include:
                             a. providing guidance to examiners on how to document and
                                 develop evidence sufficient to meet the willful or continuing
                                 disregard criteria, and/or
                             b. ensuring adequate internal coordination among legal and
                                 supervision divisions, as necessary, about what evidence is
                                 needed to successfully bring such orders.



14
  Evaluation of Prompt Regulatory Action Implementation, September 2011.
15
  We note that an increased use of enforcement authority under Section 39 of the FDI Act may provide a means to
proactively document safety and soundness concerns and build support for proving continuing disregard. Although
rarely used, Section 39, Standards for Safety and Soundness, would allow Regulators to take action against
seemingly healthy institutions that were engaging in risky practices before losses occurred. While Section 39
actions are imposed against institutions, they can also serve to document safety and soundness concerns against
institution management.
                                                         22
                     Evaluation of Enforcement Actions and Professional Liability Claims Against
                    Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                         Use of Available Enforcement Tools. The Regulators have a number of
                         progressive enforcement tools for dealing with unsafe and unsound
                         practices at institutions starting with informal actions such as board
                         resolutions and memoranda of understanding (MOU) and extending to
                         formal cease and desist orders and termination of deposit insurance. We
                         observed that the Regulators have fewer enforcement tools available for
                         holding IAPs accountable. The Regulators noted that the legal standards
                         for sustaining a removal/prohibition order should be rigorous since such
                         actions take away one’s livelihood. However, this approach can limit the
                         regulators’ options in holding individuals accountable for their actions.

                         Using personal cease and desist orders broadens the range of tools that
                         the Regulators can use to hold individuals accountable, prevent future
                         misconduct, and address safety and soundness issues. The OCC and
                         OTS have imposed personal cease and desist orders against individuals
                         associated with the failed institutions included in this review. The FRB also
                         uses this tool against individuals, but has not done so in relation to
                         individuals associated with the failed institutions under its supervision.16
                         The FDIC does not currently use personal cease and desist orders. FDIC
                         officials noted that the FDIC issues cease and desist orders against
                         institutions that include management-related provisions, which may affect
                         individual bank officials.

                         The Regulators have flexibility in determining the types of provisions to
                         include in personal cease and desist orders. Those issued by the OCC
                         and FRB have required IAPs to: cease and desist from certain acts in their
                         current positions, ensure those acts are not carried out in any future
                         employment positions, furnish future employers with a copy of the order,
                         and notify the Regulator if the IAP is employed by an institution in the
                         future. The Regulators are required to publicize EAs, including personal
                         cease and desist orders, and have done so on their public Web sites.

                         As discussed earlier, cease and desist orders do not have to meet the
                         same rigorous standards as removal/prohibition orders. In some instances,
                         particularly when pursuing removal/prohibition orders, the evidence falls
                         short of proving the required statutory elements. In instances such as
                         these, the FDIC may wish to consider imposing cease and desist orders
                         against IAPs whose actions resulted in unsafe or unsound practices.
                         Cease and desist orders against IAPs may afford the FDIC a tool to
                         address safety and soundness issues when it concludes that a
                         removal/prohibition order is not warranted and/or supportable.



16
   Additionally, all of the Regulators have issued cease and desist orders against institutions, including the 465
failed institutions that were included in this study. However, this evaluation is primarily limited to EAs pertaining to
IAPs and PLCs against individuals and entities associated with failed institutions.
                                                           23
                       Evaluation of Enforcement Actions and Professional Liability Claims Against
                      Institution-Affiliated Parties and Individuals Associated with Failed Institutions
   We recommend that the FDIC:

   2. Research the use of personal cease and desist orders as an
      enforcement tool to address safety and soundness issues that do not
      meet the criteria for a removal/prohibition order.

   Risk Appetite. We concluded that the Regulators’ risk appetite plays a
   role in their pursuit of EAs. The Regulators’ legal officials may be reluctant
   to pursue a case if these officials believe that it is not sufficiently strong and
   could set a precedent that could impede the agency’s ability to win future
   cases in the same area.

   We understand that it is important to ensure that individual cases are
   sufficiently strong to avoid setting precedents and jeopardizing future
   cases. However, legal officials need to ensure that their risk appetite aligns
   with that of the agency head. Ultimately, legal officials should clearly
   communicate the legal risks of pursuing a particular EA, but the agency
   head or senior official with delegated authority should set the level of
   litigation risk that the agency is willing to assume.

   Statute of Limitations. None of the Regulators identified the expiration of
   SOLs or related tolling agreements as impacting the pursuit of ongoing
   EAs. However, the Regulators may not identify actions that could lead to
   EAs until several years after a questionable act occurs. Because the SOL
   for commencing removal/prohibition orders and CMPs is typically 5 years
   from the date of the misconduct or the date the institution incurs a loss, the
   Regulators’ ability to pursue such EAs could be impeded if the misconduct
   is identified several years later.

   The Regulators may pursue personal cease and desist orders up to
   6 years after an IAP leaves the subject institution. Accordingly, this tool
   may provide the Regulators a longer period within which to pursue an EA.
   We noted that in some instances, the FDIC’s Legal Enforcement section
   elected not to pursue a removal/prohibition order against an IAP, in part,
   because the SOL had expired or was about to expire. In such cases, a
   personal cease and desist order could provide a viable alternative to
   removal/prohibition orders and extend the time within which the FDIC may
   take action.

   Staff Resources. The Regulators did not attribute increased workloads or
   a lack of resources to not pursuing EAs. However, even if a case appears
   to meet the statutory criteria, the Regulators may choose to not pursue a
   removal/prohibition order based on other circumstances of a case. For
   example, in cases involving lower-level employees, one or more of the
   Regulators have considered the nature and effect of the misconduct, the
   resources involved in pursuing the case, and the risks presented by an

                                     24
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
   individual’s continued participation in the institution’s affairs and decided to
   devote their limited resources to other more significant cases.

   Limited Recovery Resources. A respondent’s ability to pay is another
   consideration in pursuing actions such as CMPs and restitution. For
   example, an individual may not have the means to pay if the majority of
   his/her wealth was in the institution’s stock and the institution failed or if
   that individual was a career banker and subject to a removal/prohibition
   order. There were several instances when the Regulators did not pursue
   CMPs or restitution due to a respondent’s inability to pay.

   Parallel proceedings by DOJ. In some instances the Regulators perform
   investigations simultaneously with the DOJ. At other times, the DOJ may
   ask, or the Regulators may decide, to delay their pursuit of EAs until the
   DOJ completes its criminal investigation or proceeding. While this delays
   EAs, it may also benefit the Regulators in the long run, such as when the
   DOJ imposes criminal sanctions that the Regulators can subsequently rely
   on to impose EAs. On the other hand, because DOJ criminal convictions
   ban individuals from banking, a Regulator may conclude that it’s not
   necessary to also issue a removal/prohibition order. In determining how to
   proceed, the Regulators may also consider whether other regulators have
   open investigations on the matter.

   Other Matters Pertaining to EAs

   The FDIC’s Handling of Formal Letters. As discussed earlier, the FDIC,
   FRB and OCC issue formal letters to individuals who were convicted of
   certain crimes, pursuant to section 19 of the FDI Act. Formal letters
   reiterate that an individual has previously been prohibited from participating
   in banking for committing a criminal offense involving dishonesty, breach of
   trust, or money laundering.

   The FRB posts formal letters on its public Web site and the OCC
   identifies the IAPs that were the subjects of these letters on its public
   Web site.

   We found inconsistencies among the FDIC’s regional offices regarding
   their use of formal letters. The FDIC has not issued guidance on using, nor
   does it publicize these letters. Issuing guidance would better ensure a
   uniform approach to using section 19 letters. Publicizing such letters would
   be prudent in further holding individuals accountable and providing
   potential employers with a means for being aware of these individuals’ past
   actions as part of the hiring and screening process.




                                     25
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                          We recommend that the FDIC:

                          3. Establish written guidance describing under what circumstances to
                             issue formal letters pursuant to section 19 of the FDI Act and post these
                             letters to its public Web site.

                          EA Interagency Coordination Efforts. In 1997, a revised policy
                          statement was published in the Federal Register, which encouraged
                          increased coordination efforts among the banking Regulators concerning
                          EAs.17 The statement generally calls for the Regulators to notify each
                          other and state supervisory authorities in writing, prior to or when initiating
                          EAs against IAPs and depository institutions. For the purposes of
                          interagency notification, an EA is initiated when the appropriate responsible
                          agency official, or group of officials, determines that a formal EA should be
                          taken. Initiating EA activity typically consists of issuing a Notice of Charges
                          or Stipulated Order to an IAP. Providing notifications to the federal
                          Regulators when initiating EAs helps to ensure a consistent approach to
                          pursuing EAs and may alert the Regulators if an IAP under investigation
                          moves to an institution regulated by a different PFR.

                          The Regulators posted EA orders to their public Web sites on a monthly
                          basis as required by the FDI Act.18 Additionally, the FDIC, FRB, and OCC
                          coordinated with each other to varying degrees in terms of providing
                          information to each other when initiating EAs and these agencies notified
                          state regulatory authorities. Further, the FDIC, FRB, and OCC met on a
                          case-by-case basis to discuss matters of mutual supervisory concern.
                          However, the Regulators did not consistently provide written notifications
                          about EAs to each other, as described in the policy statement.

                          The Federal Register policy statement has not been revised since 1997,
                          and therefore may not reflect technological advances for communicating
                          EA activities. Accordingly, the Regulators may benefit from revisiting the
                          policy statement to determine the best ways to address its requirements
                          and differences that have arisen over time in agency notification practices.

                          We recommend that the FDIC, FRB, and OCC:

                          4. Consider the need to (1) increase their level of written EA coordination
                             to meet the requirements of Federal Register policy statement 62 Fed.
                             Reg. 7782, or (2) revise the policy statement to reflect the Regulators’
                             current level of coordination.




17
     62 Fed. Reg. 7782 (Feb. 20, 1997).
18
     12 U.S.C. § 1818(u).
                                                            26
                        Evaluation of Enforcement Actions and Professional Liability Claims Against
                       Institution-Affiliated Parties and Individuals Associated with Failed Institutions
       Professional Liability Claims Against Individuals and Entities

                          The FDIC’s Program and Process for Investigating and
                          Pursuing PLCs

                          The purpose of the FDIC’s professional liability program is to maximize
                          recoveries to receiverships and hold accountable directors, officers, and
                          other professionals who caused losses to failed depository institutions.
                          The FDIC as Receiver, pursues PLCs pertaining to all failed depository
                          institutions, regardless of whether the PFR was the FDIC, FRB, OCC,
                          or OTS. The main objectives of the FDIC’s PLC process are to
                          investigate all potential claims and recover losses on those PLCs that
                          are determined to be meritorious and expected to be cost-effective.

                          PLCs are civil tort and breach of contract claims that seek recovery for
                          damages caused to failed institutions by their directors, officers, and
                          other professionals who worked for or provided services to the failed
                          institutions such as lawyers, accountants, appraisers, and other
                          professionals. Recoveries are used to pay claims against the
                          receivership estate in accordance with statutory priorities set out by
                          Congress, which provide first for payment of the receiver's
                          administrative expenses, second for any deposit liability, and third for
                          general creditor claims.

                          When an institution fails, the FDIC acquires a group of legal rights,
                          titles, powers, and privileges, which include PLCs. PLCs are claims
                          under civil law for losses caused by the wrongful conduct of directors,
                          officers, lawyers, accountants, brokers, appraisers, and others who
                          have provided professional services to a failed institution. To collect on
                          these claims, the FDIC often must sue the professionals for losses
                          resulting from their breaches of duty to the failed institution. PLCs also
                          include contract rights inherited from the institution under fidelity bonds
                          that institutions purchase to cover losses resulting from dishonest or
                          fraudulent acts by their employees.

                          For each institution failure, the FDIC investigates 11 PLC types, as
                          described in Table 3. Most PLCs are closed after the investigations are
                          completed, including those that are not applicable to an institution’s
                          operations. However, when warranted, the FDIC pursues PLCs that
                          are meritorious and expected to be cost-effective. The FDIC has 3
                          years to file tort PLCs and 6 years to file contract PLCs, from the date of
                          an institution failure, unless state law permits a longer timeframe.19 The
                          FDIC documents the resolution of each PLC in written memoranda.


19
     12 U.S.C. § 1821(d)(14).
                                                            27
                        Evaluation of Enforcement Actions and Professional Liability Claims Against
                       Institution-Affiliated Parties and Individuals Associated with Failed Institutions
   Table 3: Description of PLC Types
       PLC Type                                       Description
    Director and         Claims against former directors and officers of a failed institution
    Officer (D&O)        for conduct that caused loss to the failed institution, such as
    Liability            negligence, gross negligence, or breach of fiduciary duty.
                         Claims against insurers for failure to pay under a financial
    Fidelity Bond
                         institution bond issued to the failed institution for covered acts.
                         Claims against external or internal accountants and auditors for
    Accountants’
                         conduct that caused loss to the failed institution, such as breach
    Liability
                         of contract, negligence, and professional malpractice.
                         Claims against attorneys and law firms for conduct that caused
    Attorney
                         loss to the failed institution, such as breach of contract,
    Malpractice
                         negligence, and professional malpractice.
                         Claims against individual appraisers and appraisal firms for
    Appraiser
                         conduct that caused loss to the failed institution, such as breach
    Malpractice
                         of contract, negligence, and professional malpractice.
                         In states permitting such claims, direct actions against liability
    Insurance            insurance carriers, or actions brought as assignee of a
                         professional liability insurance policy.
                         Claims against brokers or brokerage firms whose conduct in
    Commodity            connection with the purchase or sale of commodities caused loss
    Broker               to the failed institution, such as breach of contract, negligence,
                         professional malpractice, and violation of law.
                         Claims against insurance brokers for conduct in connection with
    Issuer               the issuance of insurance policies that caused loss to the failed
                         institution, such as breach of contract and negligence.
                         Claims against mortgage brokers, title insurance companies,
    Residential
                         closing agents, and appraisers for conduct in connection with
    Mortgage
                         residential mortgages that caused losses to the failed institution,
    Malpractice and
                         such as breach of contract, breach of fiduciary duty, negligence,
    Fraud
                         and professional negligence.
    Securities and       Claims against securities brokers, brokerage firms, control
    Residential          persons, issuers, depositors, underwriters, and sellers in
    Mortgage             connection with the purchase or sale of securities to the failed
    Backed               institution, such as breach of contract, negligence, gross
    Securities           negligence, breach of fiduciary duty, and violations of law.
    Other                Other claims against professionals that do not fit into the other
    Miscellaneous        professional liability claim types.
    Claims
   Source: Generated by the FDIC OIG based on information from the FDIC.

   PLC investigations require a coordinated effort between the FDIC’s DRR
   Investigations Department and PLU. Prior to an institution’s failure, DRR
   develops a Strategic Resolution Plan, which identifies critical issues and
   strategies from all of DRR’s functional areas pertaining to the orderly
   closing of an institution.

   At the closing, DRR Investigations and PLU staff interview former institution
   officials, review insurance policies, and gather documents needed to
   investigate and make decisions on whether to pursue any of the 11 PLC
   types. Key documents include:


                                     28
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                           D&O liability and fidelity bond insurance policies,
                           Board and loan committee minutes,
                           Uniform Bank Performance Reports and Securities and Exchange
                            Commission filings,
                           Reports of Examination,
                           Regulatory orders pertaining to the institution,
                           External and internal audit reports, and
                           Loan policies.

                        After the closing, DRR and/or PLU begin the process of determining
                        whether or not a PLC is meritorious and expected to be cost-effective to
                        pursue. For example, to show that a tort PLC has merit, the FDIC
                        generally must establish:

                           Duty: the party owed a duty to the institution.
                           Breach of duty: the duty was breached or violated.
                           Causation: the misconduct was the cause for the loss to the institution.
                           Damages: the breach of duty resulted in a loss to the institution.

                        The legal criteria to support certain claims such as those pertaining to
                        negligence or gross negligence may not be as rigorous as the criteria
                        necessary to support a removal/prohibition order, depending on the
                        applicable federal or state law that applies to the PLC.

                        To establish that a claim is expected to be cost-effective, the FDIC’s
                        estimated recoveries should exceed its estimated costs to pursue the
                        claim. Potential sources of recovery for the FDIC include obtainable
                        proceeds from insurance policies and assets of the targeted individuals or
                        entities. The FDIC’s costs include internal DRR and PLU costs and outside
                        counsel fees and expenses.

                        PLCs that are deemed to either lack merit or cost-effectiveness are closed
                        out by DRR and PLU through a dual approval process. Claims that are
                        deemed to be both meritorious and cost-effective are pursued. For claims
                        that are pursued, the FDIC and potential defendants are sometimes able to
                        reach a negotiated settlement prior to litigation. In these cases,
                        settlements are approved by delegated authority or the FDIC Board.20 If
                        the FDIC and potential defendants are unable to negotiate a settlement
                        and the FDIC litigates, the FDIC’s Board or appropriate delegated
                        authority must first approve the filing of a lawsuit.21 Even after the FDIC


20
   Currently, settlements in excess of $25 million require approval by the Deputy to the Chairman and Chief
Operating Officer and settlements in excess of $100 million require approval by the FDIC’s Board.
21
   Authorization from the FDIC’s Board is required to file a lawsuit on all PLCs with the exception of fidelity bond
claims of $25 million or less and residential mortgage malpractice and fraud claims of $5 million or less, which may
be approved by delegated authority.
                                                          29
                      Evaluation of Enforcement Actions and Professional Liability Claims Against
                     Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                          files a lawsuit, the defendants and the FDIC may still reach a negotiated
                          settlement or the case may proceed to trial.

                          SOLs. The SOL to file a lawsuit in support of a tort and contract PLC is
                          3 and 6 years, respectively, from the date of an institution failure, unless
                          state law permits a longer timeframe.22 The SOL can be extended for any
                          of the 11 PLC areas if the FDIC and potential defendants execute a tolling
                          agreement. Tolling agreements are typically used when both parties need
                          more time to attempt to reach a pre-suit settlement. The FDIC executed
                          tolling agreements for 15 PLCs from our sample of 63 failed institutions
                          (24 percent).

                          Performance Reporting. Since 2008, the FDIC has had an annual
                          performance goal to make a decision to close or pursue 80 percent of
                          PLCs within 18 months of an institution’s failure. The FDIC achieved this
                          target each year from 2008 through 2013 with decision rates on PLCs
                          ranging from 80 to 87 percent.

                          PLU prepares annual and quarterly reports for the FDIC Board, which
                          summarize PLC recoveries and expenses, significant litigation and
                          settlements, and PLU staffing and workloads.

                          The FDIC provides an annual report to Congress, which contains
                          information on PLC recoveries during the year, the number of authorized
                          and filed lawsuits, the number of open investigations, and the results of its
                          efforts to achieve the annual performance goal.

                          The FDIC also places general information about PLCs on its public Web
                          site including the number of PLC lawsuits authorized, the number of
                          authorized D&O liability defendants, and a listing of D&O liability lawsuits
                          filed in court. The FDIC began posting settlement agreements to its
                          external Web site in March 2013.

                          Internal Coordination Enhancements. During 2013, the FDIC enhanced
                          information sharing among its personnel working on PLCs and EAs.

                               In February 2013, Legal Enforcement began including the status of
                                enforcement investigations and actions in PLU’s Authority-to-Sue
                                Memoranda presented to the FDIC Board for approval to file lawsuits in
                                support of PLCs. Legal Enforcement also developed a worksheet to
                                track the status of enforcement investigations and EAs related to all
                                instances involving D&O liability claims in which an Authority-to-Sue
                                Memorandum had been previously approved by the FDIC Board or in
                                which the FDIC had obtained a pre-litigation settlement.

22
     12 U.S.C. § 1821(d)(14).
                                                            30
                        Evaluation of Enforcement Actions and Professional Liability Claims Against
                       Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                           In July 2013, RMS, DRR, the Legal Division, and the OIG entered into a
                            MOU to improve information sharing, cooperation, and collaboration on
                            investigations of potentially actionable misconduct or other wrongdoing
                            at failed institutions. As part of the MOU, RMS and Legal Enforcement
                            began sharing (1) information on pending EAs against individuals,
                            (2) the inventory of reported cases under development, (3) the status of
                            investigations, (4) closed-out investigations, (5) quarterly reports of
                            authorized EAs, and (6) the status of any actual or potential
                            enforcement investigation or EA related to a failed institution that is
                            included in any Authority-to-Sue Memorandum, prior to the related
                            FDIC Board meeting.

                            Pursuant to the MOU, PLU and DRR now share information regarding
                            the status of the 11 claim areas, the assigned PLU attorney, and fidelity
                            bond proofs of loss with RMS and Legal Enforcement. PLU also
                            provides draft and final Authority-to-Sue memoranda to Legal
                            Enforcement prior to the related FDIC Board meeting.

                        PLU management requires its close-out memoranda to state whether PLCs
                        have been referred to Legal Enforcement. This requirement has been in
                        effect since January 2013, or possibly earlier.

                        Legal Division guidance also instructs PLU attorneys to share information
                        about meritorious claims that are not cost-effective from a PLC perspective
                        with the Legal Enforcement attorneys. This enables Legal Enforcement to
                        determine if EAs should be pursued in relation to FDIC-supervised
                        institutions and information should be provided to the PFRs for claims
                        pertaining to non-FDIC-supervised institutions.23 In this regard, we
                        reviewed a sample of PLCs that were deemed not cost-effective, but
                        appeared to have some level of merit, to confirm that PLU shared case
                        information with Legal Enforcement and/or the PFR for EA consideration.
                        Based on a sample of 611 closed PLCs from 63 failed institutions, we
                        identified 15 PLCs that indicated some level of merit, but were closed out
                        for lack of cost-effectiveness. In these 15 instances:

                           The FDIC was the PFR in eight instances. PLU notified Legal
                            Enforcement in four of these instances.

                           The FRB and OCC were the PFRs in five and two instances,
                            respectively. The FDIC did not notify these Regulators about these
                            claims.

                        PLU stated that although these 15 PLCs were potentially meritorious, they
                        were not referred to Legal Enforcement because the facts were not
23
  Legal Division Policy No. 217 entitled Joint Enforcement Section and Professional Liability Group Protocol on
Pursuit of Actions Against Institution-Affiliated Parties dated September 23, 2009.
                                                          31
                      Evaluation of Enforcement Actions and Professional Liability Claims Against
                     Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                        sufficiently egregious to support an EA, which requires a higher standard of
                        proof than a negligence claim.

                        We are not making a recommendation in this area because the FDIC made
                        significant improvements in its internal coordination efforts during 2013.
                        Further, the FDIC OIG verbally discussed with PLU and Legal Enforcement
                        issues related to referring meritorious claims to Legal Enforcement, which
                        then coordinates with FDIC regional offices and the PFRs, when
                        warranted.

                        PLC Activity from 2008-2012

                        For the 465 institutions that failed during 2008 through 2012, the FDIC
                        investigated 5,641 potential PLCs, as shown in Table 4.24 As of
                        September 30, 2013, the FDIC:

                           Completed 430 PLCs against individuals associated with 90 institutions
                            (19 percent of 465).
                               o 60 pertained to directors and officers associated with
                                  56 institutions (12 percent of 465).
                               o 329 involved residential mortgage fraud, mostly associated with
                                  six large failed institutions.

                           Had 305 PLCs pending a final result based on litigation or negotiation.
                            These PLCs were associated with 133 institutions of which,
                            102 pertained to former directors and officers.

                           Authorized lawsuits against 1,007 former directors and officers
                            pertaining to 162 PLCs that were completed or pending the results of
                            litigation or negotiation.

                        In total, the 735 completed and pending PLCs noted above were
                        associated with 193 of the 465 failed institutions (42 percent). Table 4
                        shows the number of PLCs pursued by claim type and the status of those
                        PLCs as of September 30, 2013. Of the 5,641 potential claims, 430 were
                        completed (7.6 percent), 875 were pending a final decision (15.5 percent),
                        and 4,336 were not pursued (76.9 percent).




24
  For each of the 465 failed institutions, the FDIC routinely opened PLC investigations into 11 claim areas,
resulting in 5,115 potential PLCs plus an additional 526 potential PLCs for a total of 5,641. The 526 potential PLCs
resulted from instances when there was more than one PLC in the same claim area.
                                                          32
                      Evaluation of Enforcement Actions and Professional Liability Claims Against
                     Institution-Affiliated Parties and Individuals Associated with Failed Institutions
            Table 4: PLCs Pertaining to 465 Failed Institutions
                                                                 Pending a           Pending             Completed
                                           Closed Out by        Decision by        Results from          (Judgment,
                                           FDIC and Not        FDIC to Close       Litigation or        Settlement, or
                   Claim Type                 Pursued            or Pursue         Negotiation           Dismissed)*
                                                       186                 135                  102                 60
                   D&O Liability
                                                   (38.5%)             (28.0%)              (21.1%)            (12.4%)
                                                       376                  79                   19                 17
                   Fidelity Bond
                                                   (76.6%)             (16.1%)               (3.9%)             (3.5%)
                                                       381                  82                    5                  3
               Accountants’ Liability
                                                   (80.9%)             (17.4%)               (1.1%)             (0.6%)
                                                       411                  40                   10                  8
               Attorney Malpractice
                                                   (87.6%)              (8.5%)               (2.1%)             (1.7%)
                                                       404                  50                    4                  8
               Appraiser Malpractice
                                                   (86.7%)             (10.7%)               (0.9%)             (1.7%)
                                                       437                  29                    1                  0
                    Insurance
                                                   (93.6%)              (6.2%)               (0.2%)             (0.0%)
                                                       438                  29                    0                  0
                Commodity Broker
                                                   (93.8%)              (6.2%)               (0.0%)             (0.0%)
                                                       438                  27                    0                  0
                      Issuer
                                                   (94.2%)              (5.8%)               (0.0%)             (0.0%)
               Residential Mortgage                    422                  42                  117                329
               Malpractice and Fraud               (46.4%)              (4.6%)              (12.9%)            (36.2%)
                  Securities and
                                                       392                  24                   47                  2
               Residential Mortgage
                                                   (84.3%)              (5.2%)              (10.1%)             (0.4%)
                Backed Securities
               Other Miscellaneous                     451                  33                    0                  3
                      Claims                       (92.6%)              (6.8%)               (0.0%)             (0.6%)
                                                     4,336                 570                  305               430*
                       Total                       (76.9%)             (10.1%)               (5.4%)             (7.6%)
                                                                      5,641 PLCs
            Source: Generated by the FDIC OIG based on an analysis of FDIC data as of September 30, 2013.
            * Completed PLCs comprised settlements and court judgments to pay the FDIC and cases dismissed by
            the courts. Of the 430 completed PLCs, 379 resulted from settlements, 32 resulted from court
            judgments, and 19 were dismissed.

                          Comparison of Current and Historical PLC Data. With regards to the
                          2008 financial crisis, the FDIC completed PLCs against directors and
                          officers affiliated with 56 out of the 465 failed institutions (12 percent).
                          PLCs against directors and officers were pending a final decision based on
                          litigation or negotiation at 99 institutions. In all, a PLC had either been
                          completed or was pending a final decision against directors and officers at
                          a total of 154 institutions (33 percent), as of September 30, 2013.

                          From 1980 through 1995, the FDIC investigated PLCs for more than
                          1,600 failures for which it was the Receiver. The FDIC brought claims
                          against directors and officers in 24 percent of the institution failures
                          occurring between 1985 and 1992.25

25
     FDIC publication: Managing the Crisis: The FDIC and RTC Experience 1980-1994, 1998.
                                                             33
                        Evaluation of Enforcement Actions and Professional Liability Claims Against
                       Institution-Affiliated Parties and Individuals Associated with Failed Institutions
   Types of Actions Warranting PLCs. PLCs were pursued in response to
   the following types of misconduct:

      Negligent approval of loans with poor underwriting or that violated the
       institution’s lending policy;
      Reckless implementation of high-risk lending programs;
      Failure to heed supervisory warnings;
      Loan fraud;
      Breach of fiduciary duty pertaining to credit card pricing strategies: one
       sampled institution increased the interest rates on its credit card loans
       in disregard of sound business judgment;
      Unlawful dividend payments: one sampled institution paid dividends to
       stockholders, in violation of a state statutory limit; and
      Failure to follow appraisal standards.

   Review of PLCs from 63 Failed Institutions. We reviewed 693 potential
   PLCs from a sample of 63 failed institutions. As discussed earlier, these
   institutions had the highest loss rates as a percentage of assets. In 611
   instances (88 percent), the FDIC did not pursue PLCs because cases
   lacked merit or were not expected to be cost-effective. For the remaining
   82 PLCs:

      30 were settled for $75.3 million—14 of the PLCs were settled without
       litigation and 16 were settled after a lawsuit was filed,
      33 were being pursued through litigation or negotiation, and
      19 were still pending a decision to close out or pursue.

   The FDIC pursued at least one PLC on 42 of the 63 sampled institutions
   (67 percent) with the most commonly pursued PLC type being D&O
   liability. We verified that the FDIC obtained proper authority before
   initiating litigation or agreeing to a settlement and that close-out decisions
   were properly approved by DRR and PLU.

   Factors Impacting the Pursuit of PLCs

   Based on our research and interviews, we identified the following factors
   that have impacted the pursuit of PLC’s by the FDIC.

   Regulatory and Other Insurance Policy Exclusions. D&O insurance
   contracts purchased by institutions before failure are a primary source of
   recovery for losses resulting from misconduct of culpable directors and
   officers before their institutions failed. These potential recovery sources
   have been impacted by insurance policy exclusions, which prohibit or
   attempt to prohibit government agencies, such as the FDIC from recovering
   losses under the policy, even if the losses from wrongful acts by
   management would have been paid to non-government claimants. These
                                     34
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
   exclusions became prevalent during the 2008 financial crisis as the
   condition of the banking industry deteriorated. As the crisis unfolded, an
   increasing number of insurance policies reduced their coverage periods
   from 3 years to one-year, resulting in annual renewals. Upon renewal,
   private insurance companies added exclusions, especially for troubled
   institutions. D&O liability insurance companies also increased the number
   of policies with regulatory exclusions during the banking crisis of the 1980s
   and early 1990s.

   Table 5 shows that regulatory exclusions became more common in
   insurance policies as the 2008 financial crisis progressed. The rate of
   regulatory exclusions steadily increased from 2007 through 2013.

   Table 5: D&O Insurance Policies with Regulatory Exclusions
                    Failed Institutions
                     with Regulatory         Total Number of
        Year            Exclusions          Failed Institutions       Percentage
        2007                 0                       3                     0%
        2008                 3                      25                    12%
        2009                 50                     140                   36%
        2010                 98                     157                   62%
        2011                 65                     92                    71%
        2012                 46                     51                    90%
        2013                 23                     24                   100% *
       Total                285                 492                       58%
   Source: FDIC’s PLU.
   * One institution never had a D&O insurance policy.

   In addition to regulatory exclusions, three other types of exclusions also
   became prevalent during the 2008 financial crisis.

      Prior act exclusions. The insurance policy states that the insurance
       company will not cover certain acts that occurred prior to a specified
       date.
      “Insured versus insured” clause. This insurance policy clause
       prohibits an institution from suing itself. When an institution fails, the
       FDIC becomes the Receiver. Insurance carriers have argued that this
       policy exclusion prohibits the FDIC from recovering proceeds from
       insurance carriers.
      Carve outs. The insurance policy precludes coverage of certain unpaid
       loans.

   For the most part, the FDIC has not been successful in pursuing claims
   when regulatory and prior act exclusions are present in insurance policies
   because these exclusions are specific and straightforward. The FDIC has
   had some success in pursuing claims when the related insurance policies
   had “insured versus insured” clauses and carve out provisions. When
   pursuing PLCs, the FDIC has also targeted an individual’s personal assets.
                                     35
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                         The FDIC has performed some research to quantify the potential impact of
                         regulatory exclusions. Specifically, PLU conducted an informal study on
                         492 institution failures that occurred from 2007 through 2013 and estimated
                         the potential impact of lost PLC recoveries due to regulatory exclusions in
                         insurance policies.26 PLU found that 285 of the 492 failed institutions
                         (58 percent) had D&O insurance policies with regulatory exclusions and
                         estimated that these exclusions reduced the FDIC’s potential PLC
                         recoveries by $271.1 million.

                         The FDIC has considered potential alternative recovery sources such as
                         increasing the deposit insurance assessments for institutions with
                         regulatory exclusions. However, FDIC officials concluded that it would be
                         difficult to implement an assessment-based alternative to D&O policies,
                         particularly when D&O policies renew annually. We believe that the FDIC
                         should continue to research alternative recovery sources. One option we
                         discussed with FDIC officials was requiring institutions with regulatory
                         exclusions in their insurance policies to establish reserves on their balance
                         sheets to compensate for the additional risk of loss when D&O policy
                         proceeds may not be available to the FDIC. Doing so, could preserve a
                         reserve amount in lieu of the D&O proceeds and limit DIF losses should the
                         institution fail. However, requiring such a reserve would reduce an
                         institution’s regulatory capital and could be detrimental to a problem
                         institution.

                         We recommend that the FDIC:

                         5. Perform additional research pertaining to ways to compensate for lost
                            revenues as a result of regulatory and other insurance policy
                            exclusions.

                         In response to the increase in insurance policy exclusions, in October
                         2013, the FDIC issued a financial institution letter27 to institutions for which
                         the FDIC was the PFR. The letter discussed the importance of reviewing
                         and understanding the risks associated with coverage exclusions
                         pertaining to D&O liability insurance policies. When such exclusions apply,
                         directors and officers may be personally liable for damages arising out of
                         civil suits relating to their decisions and actions. The letter recommended
                         that each director and officer fully understand the protections and
                         limitations provided by the institution’s D&O liability policy when
                         considering renewals of and amendments to existing policies.


26
   This informal study did not include the potential impact of lost PLC recoveries from prior act exclusions, insured
versus insured clauses, or carve out provisions.
27
   Financial Institution Letter FIL-47-2013 entitled Director and Officer Liability Insurance Policies, Exclusions, and
Indemnification for Civil Money Penalties.
                                                           36
                       Evaluation of Enforcement Actions and Professional Liability Claims Against
                      Institution-Affiliated Parties and Individuals Associated with Failed Institutions
   This letter appropriately raises awareness of this issue among banking
   directors and officers. The OCC and the FRB did not issue similar letters.
   Given its significance and applicability to all insured institutions, the
   information in the October 2013 advisory letter would be beneficial to
   institutions regulated by the FRB and OCC.

   Accordingly, we recommend that the FRB and OCC:

   6. Advise their regulated institutions about insurance policy exclusions.

   Legal Requirements. Legal requirements are a factor in pursuing PLCs
   because the FDIC must prove certain elements to establish that a claim
   has merit. To show that a tort PLC has merit, the FDIC generally must
   prove: duty, breach, causation, and damages. Federal and state statutes
   and judicial decisions establish the legal obligations of individuals and
   entities subject to PLCs. In some instances, proving each required
   element can be difficult. Additionally, some state laws include a business
   judgment rule that have been interpreted to require the FDIC to prove
   gross negligence to succeed on a PLC.

   Based on a review of 611 claim areas from our sample of 63 failed
   institutions, 596 (97.5 percent) were closed due to a lack of merit.

   Limited Recovery Resources. The FDIC evaluates potential recovery
   sources such as available insurance coverage and personal or company
   assets of the targeted defendants along with the estimated cost to litigate
   the claim and the probability of success in litigation.

   The majority of PLCs are paid out of insurance proceeds. In other
   instances, individuals or entities pay PLCs. Recoveries can be impacted
   when insurance policy funds are reduced as a result of legal fees to defend
   individuals and entities against PLCs. If insurance is unavailable as a
   recovery source, the FDIC can still pursue personal assets of potential
   defendants or company assets. However, potential defendants may have
   limited assets, the assets may be subject to bankruptcy proceedings, or the
   cost to pursue the assets may be prohibitive.

   Based on a review of 611 claim areas from a sample of 63 failed
   institutions, we found that 15 (2.5 percent) contained some level of merit
   but were not pursued because the FDIC determined that it was not cost-
   effective to do so because of limited recovery resources.

   SOLs and Restrictions of Tolling Agreements. SOLs place time
   constraints on the FDIC to file suit on PLCs. Tolling agreements extend a
   SOL and allow more time for the FDIC and potential defendants to reach
   pre-litigation settlements. FDIC officials noted that SOLs have not

                                     37
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                           impacted the agency’s ability to pursue PLCs. However, if the FDIC does
                           not identify misconduct until after the expiration of an SOL, the FDIC is
                           generally prohibited from pursuing a PLC.

                           In 15 out of 63 sampled institutions (24 percent), the FDIC and potential
                           defendants entered into tolling agreements on one or more PLCs. The
                           FDIC and defendants entered into 20 tolling agreements associated with
                           those 63 institutions.

                           The FDIC has limited its use of tolling agreements due to an April 2013
                           Kansas court decision prohibiting their use by the NCUA. The court ruled
                           that an extender statute, which allows the NCUA to file claims on behalf of
                           failed credit unions for a certain period of time after the institutions fail,
                           prohibits the use of tolling agreements. Because the FDIC has a similar
                           extender statute (12 U.S.C. § 1821(d)(14)(A)) to allow for the filing of PLCs
                           for a certain period of time after institutions fail, the court’s order impacted
                           the FDIC and it now files cases earlier that might have otherwise been
                           settled without litigation. The FDIC disagrees with and has filed an amicus
                           brief in support of the NCUA’s position and pending appeal of the Kansas
                           court’s decision. FDIC officials noted that the FDIC has prevailed in PLC
                           lawsuits in which this decision has been raised as a defense.

                           Staffing Resources. We did not identify staffing resources as an
                           impediment to pursuing PLCs. To address greater PLC workloads as the
                           financial crisis progressed, the FDIC increased staff dedicated to
                           investigating and litigating PLCs. As of December 31, 2012, DRR
                           Investigations had 102 total staff located in two offices (the Dallas Regional
                           Office and East Coast Temporary Satellite Office).28 DRR also receives
                           assistance from contractors during times of peak workload. PLU had
                           55 staff located in three offices (the Virginia Square facility, Dallas Regional
                           Office, and East Coast Temporary Satellite Office). PLU also receives
                           assistance from outside counsel to investigate claims and litigate cases.

                           Other Matters Pertaining to PLCs

                           Tracking Recoveries and Expenses. The FDIC tracks PLC recovery and
                           expense information on an aggregate, program-wide basis and reports this
                           information to the FDIC Board on a quarterly and annual basis. Table 6
                           presents annual PLC recoveries and expenses. Recoveries often lag
                           expenses because a significant amount of time can pass before the FDIC
                           is able to collect on PLCs. Annual recoveries can also be heavily impacted
                           by large settlements. For example:




28
     The East Coast Temporary Satellite Office closed on April 5, 2014.
                                                             38
                         Evaluation of Enforcement Actions and Professional Liability Claims Against
                        Institution-Affiliated Parties and Individuals Associated with Failed Institutions
    In 2011, over half of the PLC recoveries were from a $140.5 million final
     payment from a 2001 settlement related to the failure of Superior Bank,
     FSB.

    In 2012, nearly half of the recoveries were derived from a $165.0 million
     collection on a settlement with the former directors and officers of
     Washington Mutual Bank.

    In 2013, the majority of the recoveries resulted from settlements of
     $500 million from JPMorgan Chase & Company and its affiliates and
     $55.3 million from Ally Securities, LLC.

   Table 6: FDIC PLC Recoveries and Expenses: 2008-2013
   (Dollars in Millions)
                                                                 Recoveries to
          Year            Recoveries          Expenses*
                                                                  Expenses
          2008               $31.3                $9.7               3.23 to 1
          2009               $47.1               $52.9               0.89 to 1
          2010               $79.4              $160.8               0.49 to 1
          2011               $231.9             $139.5               1.66 to 1
          2012               $337.3             $110.1               3.06 to 1
          2013               $674.2             $144.6               4.66 to 1
         Total            $1,401.2           $617.6               2.27 to 1
   Source: FDIC’s PLU.
   * Expenses include all costs associated with investigating, closing, and
     pursuing PLCs.

   Currently, the FDIC’s Legal Division does not report PLC cost and recovery
   information by individual institution. PLC costs include DRR investigation
   costs, PLU attorney costs, and outside counsel expenses. As discussed
   previously, the FDIC investigates each of the 11 claim areas for each failed
   institution and most of these claims are closed out. The FDIC makes the
   decision on the merit and cost-effectiveness of pursuing a PLC after
   completing the investigation phase and by comparing expected settlements
   with anticipated litigation costs. Accordingly, because these investigative
   expenses are sunk costs, PLC expenses will exceed recoveries for failed
   institutions when no claims are pursued.

   For those PLCs that are deemed to be meritorious and cost-effective, the
   Legal Division provides estimated recovery and expense information by
   institution to the FDIC Board when requesting its approval to issue a
   lawsuit in support of a PLC. However, actual recovery and expense
   information by institution is not reported to the FDIC Board. Formally
   tracking and providing recovery and expense information by institution to
   the FDIC Board and other FDIC executives could provide greater

                                      39
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
             transparency, better ensure that the FDIC’s recoveries associated with
             pursuing PLCs align with expenses on a case-specific basis, and allow for
             another means of assessing PLC costs and program success. For
             example, the Legal Division could periodically report to the FDIC Board
             total cost and recovery information pertaining to institutions for which all
             11 PLC types were closed or completed during a reporting period.

             We recommend that the FDIC:

             7. Track recoveries and expenses associated with professional liability
                claims by institution, and periodically report this information to the FDIC
                Board of Directors and other FDIC executives.


Agency Comments and OIG Evaluation

             We provided a draft of this report to the FDIC, FRB, and OCC for review
             and comment and incorporated the agencies’ comments into the final
             report, where appropriate. The agencies also provided written comments
             that we have included in their entirety in Appendix 4.

             The FDIC, FRB, and OCC agreed with and described their planned actions
             to address the recommendations applicable to their respective agencies.
             Of the seven recommendations in this report, two were applicable to all
             three agencies, one was applicable to the FRB and OCC, and four were
             applicable to the FDIC.



                     *             *            *            *            *            *




                                               40
           Evaluation of Enforcement Actions and Professional Liability Claims Against
          Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                 We extend our appreciation to the FDIC, FRB, and OCC for the
                 cooperation extended to our staff during the evaluation. Major contributors
                 to this report are listed in Appendix 5.




/s/                                        /s/                                  /s/
Fred W. Gibson, Jr.                        Mark Bialek                          Eric M. Thorson
Principal Deputy Inspector General         Inspector General                    Inspector General
Federal Deposit Insurance                  Board of Governors of the            Department of the Treasury
Corporation                                Federal Reserve System
                                           and Consumer Financial
                                           Protection Bureau




                                                   41
               Evaluation of Enforcement Actions and Professional Liability Claims Against
              Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                        Appendix 1
                        Objectives, Scope, and Methodology




                        Objectives

                        Our objectives were to:

                        1.       Describe the Regulators’ processes for investigating and pursuing
                                 EAs against IAPs associated with failed institutions;
                        2.       Describe the FDIC’s process for investigating and pursuing PLCs
                                 against individuals and entities associated with failed institutions
                                 and its coordination with the FRB and OCC;
                        3.       Determine the results of the Regulators’ efforts in investigating
                                 and pursuing EAs and the FDIC’s efforts in pursuing PLCs; and
                        4.       Assess key factors that may impact the pursuit of EAs and PLCs.

                        Scope and Methodology

                        The evaluation was performed jointly by the OIGs for the FDIC, the
                        FRB, and the Treasury. Our review covered the 465 institutions that
                        failed during the 5-year period spanning January 1, 2008 through
                        December 31, 2012, that were regulated by the FDIC, FRB, OCC, or
                        OTS. The EAs and PLCs discussed in this report covered the time
                        period from January 1, 2008 through September 30, 2013. The data in
                        this report is as of September 30, 2013, unless otherwise noted.

                        The information in this report is primarily limited to formal EAs imposed
                        on IAPs and PLCs brought against individuals and entities. The
                        Regulators have also imposed formal and informal EAs and other
                        sanctions against institutions, and have shared information with or
                        referred criminal matters to the DOJ.

                        Portions of our testing focused on a judgmental sample29 of institutions
                        regulated by the FDIC, FRB, and OCC, that failed between 2008 and
                        2012, where an MLR was conducted. Of the 465 institutions included
                        in this evaluation, 145 fit these criteria. Our sample consisted of 63 of
                        the 145 institutions, where the:

                                 FDIC was the PFR for 96 of the 145 institutions. We selected
                                  the 20 institutions with the highest percentage of losses to total
                                  assets.
                                 FRB was the PFR for 23 of the 145 institutions. We selected all
                                  23 institutions.


29
 The results of a judgmental sample cannot be projected to the intended population by standard statistical
methods.
                                                       42
                   Evaluation of Enforcement Actions and Professional Liability Claims Against
                 Institutution-Affiliated Parties and Individuals Associated with Failed Institutions
      Appendix 1
      Objectives, Scope, and Methodology



              OCC was the PFR for 26 of the 145 institutions. We selected
               the 20 institutions with the highest percentage of losses to total
               assets.

      We obtained data from the Regulators’ information systems and public
      Web sites to gather statistics on the number and status of EAs and
      PLCs. We traced data from these systems to source documents and
      reviewed the data for consistency and reliability. We did not assess
      the information system controls associated with the systems because
      this was not part of our objectives.

      We performed this evaluation from April 2013 through January 2014 in
      accordance with the Council of the Inspectors General on Integrity and
      Efficiency’s Quality Standards for Inspection and Evaluation.

      Objective 1. To describe the Regulators’ processes for investigating
      and pursuing EAs against IAPs associated with failed institutions, the
      OIGs:

         Reviewed Section 8 of the FDI Act and identified the authority
          granted and statutory elements required to issue the different types
          of EAs against IAPs.

         Gained an understanding of the policies, procedures, and criteria
          pertaining to EAs, including those pertaining to delegations of
          authority and SOLs.

         Reviewed EA information contained in reports provided to
          Congress, the FDIC’s Board, the FRB, and the Comptroller of the
          Currency.

         Interviewed Headquarters and regional office staff in the FDIC’s
          Legal Division, RMS, and DRR; in the FRB’s Legal Division and
          Division of Banking Supervision and Regulation (BS&R); and the
          OCC’s Enforcement and Compliance Division.

         Interviewed the FDIC’s Chairman and the ALJ for the FDIC, FRB,
          OCC, and NCUA.

         Assessed coordination efforts within each regulatory agency.

         Documented the FDIC’s use of back-up enforcement authority
          pertaining to Downey and IndyMac.


                                     43
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
      Appendix 1
      Objectives, Scope, and Methodology



         Reviewed FDIC’s expectations and success pertaining to the timely
          handling and disposition of EA cases. The FRB and OCC did not
          have commensurate metrics.

         Documented the FDIC’s, FRB’s and OCC’s issuance and use of
          formal letters.

         Reviewed the Regulators’ processes for publicizing EAs and
          concluded that the Regulators publicized EAs in accordance with
          statutory requirements.

         For the judgmental sample of 63 failed institutions, we:
          o Reviewed documentation in support of pursued, pending and
             closed-out EAs.
          o Determined whether EA decisions were properly approved.
          o Determined the timeliness of EA close-outs.


      Objective 2. To describe the FDIC’s process for investigating and
      pursuing PLCs against individuals and entities associated with failed
      institutions and its coordination with the FRB and OCC, the FDIC OIG:

         Reviewed FDIC guidance and key reports, including
            o Applicable DRR and Legal Division directives,
            o The Joint Delegations of Authority issued by DRR and the
                Legal Division,
            o The FDIC’s Annual Report to Congress,
            o Documents provided to the FDIC’s Board, and
            o Policies and procedures related to interagency coordination
                efforts pertaining to PLCs.

         Determined DRR Investigations’ and the Legal Division’s PLU
          staffing levels.

         Interviewed DRR and Legal Division officials in the FDIC’s
          Regional, Temporary Satellite, and Headquarters’ offices.

         Assessed the FDIC’s success in meeting performance goals
          pertaining to PLCs.

         Reviewed the FDIC’s process for publicizing completed PLCs and
          tested the process for compliance.



                                     44
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
      Appendix 1
      Objectives, Scope, and Methodology



         For the judgmental sample of 63 failed institutions, the FDIC OIG:

               o Reviewed documentation on the PLC investigations process
                 and tolling agreements executed between the FDIC and
                 potential defendants.

               o Reviewed documentation supporting FDIC decisions to close
                 or pursue PLCs, including close-out memoranda and
                 authorizations to file suit or settle.

               o Determined whether PLC decisions were properly approved.

               o Determined which PLCs were closed out due to lack of merit
                 and cost-effectiveness.

               o Determined the timeliness of PLC close-outs.

               o Reviewed coordination efforts among the FDIC’s PLU and
                 Enforcement sections, and other PFRs.

      The Treasury OIG:

         Reviewed policies and procedures related to interagency
          coordination efforts between the FDIC and other Regulators,
          pertaining to PLCs.

         Selected a sample of PLCs that were pursued by the FDIC where
          the OCC was the PFR, reviewed supporting documentation, and
          interviewed OCC officials to assess OCC coordination efforts with
          the FDIC.

         Coordinated with the FDIC regarding PLC information pertaining to
          the 20 OCC failed institutions that were sampled in this evaluation.


      Objective 3. To determine the results of the Regulators’ efforts in
      investigating and pursuing EAs and the FDIC’s efforts in pursuing
      PLCs, the OIGs:

         Gathered statistics showing the number and types of EAs and
          PLCs pertaining to the 465 FDIC-insured institutions that failed
          during the five year period from 2008-2012.

         For the judgmental sample of 63 failed institutions:
             o Analyzed the number of related EAs and PLCs,
                                     45
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
      Appendix 1
      Objectives, Scope, and Methodology



               o Determined the reasons why EAs and PLCs were pursued
                 or closed, and whether cases were timely closed.
               o Analyzed MLR data pertaining to the institutions’
                 management.

         Verified EA and PLC data to source documents and information on
          the Regulators’ public Web sites.

         Determined the number of EAs and PLCs against directors and
          officers compared to other IAPs and individuals.

         Compared the number of EAs adjudicated by the ALJ to the
          number of EAs consented to by the IAPs.

         Analyzed the number of failed institutions with convictions against
          IAPs that resulted from the FDIC, FRB, and Treasury OIG Office of
          Investigations’ efforts.


      Objective 4. To assess key factors that may impact the Regulators’
      pursuit of EAs and PLCs, the OIGs:

         For the judgmental sample of 63 institutions:
             o Reviewed EA and PLC documentation and determined the
                 extent that key factors impacted decisions to close EA cases
                 and PLCs.
             o Assessed the need for and use of tolling agreements for EAs
                 and PLCs when a SOL was as a factor.
             o Compared the timing of EA and PLC decisions to
                 performance goal deadlines.

         Conducted interviews to understand the reasons EA cases and
          PLCs were closed, including whether legal requirements, staffing
          and monetary resources, or risk appetite, among other things,
          impacted decisions to pursue or close these cases.




                                     46
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                   Appendix 2
                   Regulators’ Processes for Pursuing EAs and PLCs


                                      FDIC: Enforcement Actions Process Pertaining to IAPs




Source: Created by the FDIC OIG based on input from the FDIC.



                                                                           47
                                       Evaluation of Enforcement Actions and Professional Liability Claims Against
                                      Institution-Affiliated Parties and Individuals Associated with Failed Institutions
               Appendix 2
               Regulators’ Processes for Pursuing EAs and PLCs


                                   FRB: Enforcement Actions Process Pertaining to IAPs




Source: Created by the FRB OIG based on input from the FRB.
                                                                       48
                                   Evaluation of Enforcement Actions and Professional Liability Claims Against
                                  Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                  Appendix 2
                  Regulators’ Processes for Pursuing EAs and PLCs


                                      OCC: Enforcement Actions Process Pertaining to IAPs




Source: Created by the Treasury OIG based on input from the OCC.

                                                                           49
                                       Evaluation of Enforcement Actions and Professional Liability Claims Against
                                      Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                            Appendix 2
                            Regulators’ Processes for Pursuing EAs and PLCs




                              FDIC: Professional Liability Claims Process
                      DRR Investigations/Legal PLU are informed of upcoming failure
                       and research the institution, officials, and other professionals
                                 who provided services to the institution.




                     Over the institution’s closing weekend, DRR Investigations/Legal
                        PLU gather and secure institution records and interview
                                    institution personnel, as appropriate.




                      DRR Investigations/Legal PLU investigate potential PLCs in the
                         11 claim areas. During this process, staff reviews public,
                       institution, and examination records and, where appropriate,
                       obtains authority to and issues administrative subpoenas for
                                   additional documents and/or testimony.



DRR Investigations/Legal PLU assess the
evidence to determine whether meritorious
                                                             If not, a closeout memo is prepared and
   and cost-effective PLC claims exist.
                                                            approved by both DRR Investigations and
                                                                             Legal PLU.


   If yes, DRR Investigations/Legal PLU
prepare a request for authority to sue that is
                                                             If the lawsuit is not approved, a closeout
presented to the FDIC Board or appropriate
                                                             memo is prepared and approved by both
      delegated authority for approval.
                                                                 DRR Investigations and Legal PLU.



    If authority is granted and a pre-suit
                                                             Matters closed out for cost-effectiveness
settlement* cannot be reached, a lawsuit is
                                                              are considered for referral for possible
   filed in the appropriate court or other
                                                                       enforcement action.
                    forum.**


   * Targets of investigations are generally provided an opportunity to settle claims prior to a lawsuit being filed.
   Authorities to settle are obtained as appropriate through delegated authority or the FDIC Board at any point
   during this process. Final settlements are posted to the FDIC’s Web site.

   ** Lawsuits are generally filed in federal court; however, there may be circumstances when suits are filed in
   state court or proceed to arbitration.

   Source: FDIC.


                                                           50
                       Evaluation of Enforcement Actions and Professional Liability Claims Against
                     Institutution-Affiliated Parties and Individuals Associated with Failed Institutions
                     Appendix 3
                     Glossary of Terms




2008 Financial Crisis                   The 2008 financial crisis is considered by many
                                        economists to be the worst financial crisis since the
                                        Great Depression of the 1930s. It resulted in the threat
                                        of total collapse of large financial institutions, national
                                        government assistance to financial institutions, and
                                        downturns in stock markets around the world. Also
                                        associated with the crisis were large declines in
                                        employment, household wealth, and other economic
                                        indicators. Studies suggest that losses associated with
                                        this crisis based on lost output (value of goods and
                                        services not produced) could range from a few trillion
                                        dollars to over $10 trillion.

Authority-to-Sue Memorandum             An official document used by the FDIC for
                                        communicating the findings of a PLC investigation and
                                        recommending approval to file a lawsuit. This
                                        document is reviewed by the FDIC Board as part of the
                                        approval process for initiating litigation. The document
                                        contains information on the defendant(s), case facts,
                                        the reasons for pursuing the claim, damages,
                                        anticipated defenses, likelihood of success in litigation,
                                        and cost estimates.

Breach of Contract Claim                A claim made against an individual or entity whose duty
                                        is defined by the terms of a contract.

Covered Offense                         Any criminal offense involving dishonesty, breach of
                                        trust, or money laundering.

Deposit Insurance Fund (DIF)            The DIF was created in 2006, when the Federal
                                        Deposit Insurance Report Act of 2005 provided for the
                                        merging of the Bank Insurance Fund and the Savings
                                        Association Insurance Fund. The FDIC administers the
                                        DIF, the goal of which is to (1) insure deposits and
                                        protect depositors of DIF-insured institutions, and (2)
                                        resolve failed DIF-insured institutions at the least
                                        possible cost to the DIF (unless a systemic risk
                                        determination is made). The DIF is primarily funded
                                        from deposit insurance assessments.

Edge Act                                A 1919 amendment to the Federal Reserve Act, which
                                        was sponsored by Senator Walter E. Edge of New
                                        Jersey, that authorized the FRB to charter corporations
                                        for the purpose of engaging in certain international or
                                        foreign banking and financial operations either directly
                                                    51
                Evaluation of Enforcement Actions and Professional Liability Claims Against
              Institutution-Affiliated Parties and Individuals Associated with Failed Institutions
                       Appendix 3
                       Glossary of Terms




                                          or through the agency, ownership, or control of local
                                          institutions in foreign countries.

FDIC as Receiver                          The FDIC as Receiver succeeds to the rights, powers,
                                          and privileges of a failed institution and its
                                          stockholders, officers, and directors. The FDIC as
                                          Receiver may collect all obligations and money due to
                                          an institution, preserve or liquidate its assets and
                                          property, and perform any other function of the
                                          institution consistent with its appointment. The FDIC
                                          as Receiver is functionally and legally separate from
                                          the FDIC acting in its corporate capacity as regulator
                                          and deposit insurer.

Federal Deposit Insurance Act             A statute enacted on September 21, 1950 (12 U.S.C §
(FDI Act)                                 1811 et. seq.) that governs the FDIC.

Formal Enforcement Action                 An action taken pursuant to the powers granted to
                                          Regulators under Section 8 of the FDI Act. Each
                                          situation and circumstance determines the most
                                          appropriate action to be taken.

Informal Enforcement Action               A voluntary commitment made by an institution’s
                                          Board. These actions are designed to correct identified
                                          deficiencies or ensure compliance with federal and
                                          state banking laws and regulations. Informal actions
                                          are neither publicly disclosed nor legally enforceable.

Institution-Affiliated Party (IAP)        As defined in Section 3(u) of the FDIC Act, an IAP is:
                                          1. Any director, officer, employee, or controlling
                                             stockholder (other than a bank holding company or
                                             savings and loan holding company) of, or agent for,
                                             an insured depository institution;
                                          2. Any other person who has filed or is required to file
                                             a change-in-control notice with the appropriate
                                             Federal banking agency under section 7(j);
                                          3. Any shareholder (other than a bank holding
                                             company or savings and loan holding company),
                                             consultant, joint venture partner, and any other
                                             person as determined by the appropriate Federal
                                             banking agency (by regulation or case-by-case)
                                             who participates in the conduct of the affairs of an
                                             insured depository institution; and
                                          4. Any independent contractor (including any attorney,
                                                      52
                  Evaluation of Enforcement Actions and Professional Liability Claims Against
                 Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                      Appendix 3
                      Glossary of Terms




                                             appraiser, or accountant) who knowingly or
                                             recklessly participates in
                                             a) any violation of any law or regulation;
                                             b) any breach of fiduciary duty; or
                                             c) any unsafe or unsound practice, which caused
                                                or is likely to cause more than a minimal
                                                financial loss to, or a significant adverse effect
                                                on, the insured depository institution.

Insured Depository Institution           Includes all institutions insured by the FDIC, including
                                         national banks, state institutions, thrifts, and saving and
                                         loans.

Material Loss Review (MLR)               When an institution failure results in a material loss to
                                         the DIF, the FDI Act requires the appropriate Inspector
                                         General to conduct an MLR to report the causes of the
                                         failure and the PFR’s supervision of the institution.
                                         Before July 21, 2010, a material loss was defined as a
                                         loss to the DIF that was in excess of the greater of $25
                                         million or two percent of an institution’s total assets at
                                         the time the FDIC was appointed receiver. Amended
                                         by the Dodd-Frank Act, effective July 21, 2010, section
                                         38(k) defines a loss as material if it exceeds $200
                                         million for calendar years 2010 and 2011, $150 million
                                         for calendar years 2012 and 2013, and $50 million for
                                         calendar years 2014 and thereafter (with a provision
                                         that the threshold can be raised temporarily to $75
                                         million if certain conditions are met).

Notice of Charges                        A formal document stating the charges against an IAP,
                                         individual, or entity; the facts surrounding a case; and a
                                         time and place for a hearing.

Office of Financial Institution          The executive body charged with overseeing
Adjudication                             administrative enforcement proceedings of the FDIC,
                                         FRB, OCC, and NCUA.

Restitution                              A remedial action to compensate an institution for a
                                         loss that it suffered as a result of a wrongdoer’s
                                         misconduct. Restitution may be result from an
                                         administrative action or a criminal proceeding.
                                         Administrative restitution may be imposed by the
                                         Regulators under Section 8(b)(6) of the FDI Act if an
                                         IAP was unjustly enriched by a violation or practice that
                                                     53
                 Evaluation of Enforcement Actions and Professional Liability Claims Against
                Institution-Affiliated Parties and Individuals Associated with Failed Institutions
                     Appendix 3
                     Glossary of Terms




                                        involved a reckless disregard of a law, regulation, or
                                        prior order issued by the Regulators. Criminal
                                        restitution may be imposed by a court when a person is
                                        convicted of a criminal offense.

Regulatory Exclusion                    An insurance policy endorsement, term, or rider that
                                        excludes the FDIC as Receiver from recovering
                                        damages based on its PLCs from insurance policy
                                        proceeds.

Suspicious Activity Report              A report made by an institution to the Financial Crimes
(SAR)                                   Enforcement Network (FinCEN), an agency of the
                                        Department of the Treasury, regarding suspicious or
                                        potentially suspicious activity. An institution is required
                                        to file a SAR when it detects a known or suspected
                                        criminal violation of federal law or a suspicious
                                        transaction related to money laundering or a violation
                                        of the Bank Secrecy Act.

Tolling Agreement                       An agreement between the Regulators and potential
                                        defendants that extends the SOL. This agreement has
                                        been used when the parties are attempting to negotiate
                                        a settlement without litigation.

Tort                                    A breach of duty that the law imposes on persons who
                                        stand in a particular relation to one another.

Tort Claim                              A civil legal claim, other than a breach of contract, for
                                        which a remedy may be obtained, usually in the form of
                                        damages.

Uniform Bank Performance                A multi-page financial analysis that compares the
Report                                  performance of a given bank against itself and its peer
                                        banks, over time.

Written Agreement                       An enforceable agreement executed between
                                        institutions and regulators in lieu of an EA pursuant to
                                        An enforceabsection 8(a) or 8(b) of the FDI Act.




                                                    54
                Evaluation of Enforcement Actions and Professional Liability Claims Against
               Institution-Affiliated Parties and Individuals Associated with Failed Institutions
       Appendix 4
       Regulators’ Responses




                                      55
  Evaluation of Enforcement Actions and Professional Liability Claims Against
Institutution-Affiliated Parties and Individuals Associated with Failed Institutions
      Appendix 4
      Regulators’ Responses




                                     56
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
      Appendix 4
      Regulators’ Responses




                                     57
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
      Appendix 4
      Regulators’ Responses




                                     58
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
      Appendix 4
      Regulators’ Responses




                                     59
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
      Appendix 4
      Regulators’ Responses




                                     60
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
      Appendix 4
      Regulators’ Responses




                                     61
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
      Appendix 4
      Regulators’ Responses




                                     62
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
     Appendix 5
     Major Contributors to this Report




     FDIC OIG

     Philip Hodge, Audit Specialist
     Robin J. King, Auditor-in-Charge
     Charlinda Sims, Auditor
     Jill Lennox, Evaluations Manager

     E. Marshall Gentry, Assistant Inspector General for Evaluations


     Board of Governors of the Federal Reserve System and
     Consumer Financial Protection Bureau OIG

     Jennifer Ksanznak, Auditor
     Michael VanHuysen, Senior OIG Manager
     Anna Saez, Audit Manager

     Melissa Heist, Associate Inspector General for Audits and Evaluations


     Department of the Treasury OIG

     Kevin Guishard, Auditor-in-Charge
     Jeremy Spears, Auditor
     John Tomasetti, Auditor
     Dana Duvall, Audit Manager
     Susan Barron, Audit Director

     Marla A. Freedman, Assistant Inspector General for Audit
     Robert Taylor, Deputy Assistant Inspector General for Audit




                                     63
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
     Appendix 6
     Final Report Distribution




     Federal Deposit Insurance Corporation

          Chairman

     Board of Governors of the Federal Reserve

          Chair

     Office of the Comptroller of the Currency

          Comptroller of the Currency
          Liaison Officer

     Department of the Treasury

          Deputy Secretary
          Office of Strategic Planning and Performance Management
          Office of the Deputy Chief Financial Officer, Risk and Control Group

     Office of Management and Budget

          OIG Budget Examiner




                                     64
 Evaluation of Enforcement Actions and Professional Liability Claims Against
Institution-Affiliated Parties and Individuals Associated with Failed Institutions
